<html>
<title> - FOR BETTER OR WORSE? AN EXAMINATION OF THE STATE OF THE DISTRICT OF COLUMBIA'S CHILD AND FAMILY SERVICES RECEIVERSHIP</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




  FOR BETTER OR WORSE? AN EXAMINATION OF THE STATE OF THE DISTRICT OF 
           COLUMBIA'S CHILD AND FAMILY SERVICES RECEIVERSHIP

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 5, 2000

                               __________

                           Serial No. 106-199

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
70-581                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                  THOMAS M. DAVIS, Virginia, Chairman
CONSTANCE A. MORELLA, Maryland       ELEANOR HOLMES NORTON, Washington, 
STEPHEN HORN, California                 DC
JOE SCARBOROUGH, Florida             CAROLYN B. MALONEY, New York
                                     EDOLPHUS TOWNS, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                    Melissa Wojciak, Staff Director
              Victoria Proctor, Professional Staff Member
               Hana Brilliant, Professional Staff Member
                           Jenny Mayer, Clerk
                      Jon Bouker, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 5, 2000......................................     1
Statement of:
    DeLay, Hon. Tom, a Representative in Congress from the State 
      of Texas...................................................    18
    Fagnoni, Cynthia M., Director, Education, Workforce, and 
      Income Security Issues, U.S. General Accounting Office; 
      Judith Meltzer, deputy director, the Center for the Study 
      of Social Policy; and Ernestine F. Jones, general receiver, 
      the District of Columbia Child and Family Services.........    30
    Graham, Carolyn, deputy mayor for Children, Youth and 
      Families, District of Columbia; Grace Lopes, special 
      counsel, Receivership and Institutional Litigation; and 
      Kimberley A. Shellman, executive director, the District of 
      Columbia Children's Advocacy Center........................    00
Letters, statements, etc., submitted for the record by:
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................     5
    DeLay, Hon. Tom, a Representative in Congress from the State 
      of Texas, prepared statement of............................    21
    Fagnoni, Cynthia M., Director, Education, Workforce, and 
      Income Security Issues, U.S. General Accounting Office:
        Information concerning judges............................   122
        Prepared statement of....................................    33
    Graham, Carolyn, deputy mayor for Children, Youth and 
      Families, District of Columbia, prepared statement of......    84
    Jones, Ernestine F., general receiver, the District of 
      Columbia Child and Family Services, prepared statement of..    65
    Lopes, Grace, special counsel, Receivership and Institutional 
      Litigation, prepared statement of..........................    95
    Meltzer, Judith, deputy director, the Center for the Study of 
      Social Policy, prepared statement of.......................    53
    Norton, Hon. Eleanor Holmes, a Representative in Congress 
      from the District of Columbia, prepared statement of.......    16
    Shellman, Kimberley A., executive director, the District of 
      Columbia Children's Advocacy Center, prepared statement of.   104

 
  FOR BETTER OR WORSE? AN EXAMINATION OF THE STATE OF THE DISTRICT OF 
           COLUMBIA'S CHILD AND FAMILY SERVICES RECEIVERSHIP

                              ----------                              


                          FRIDAY, MAY 5, 2000

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154 Rayburn House Office Building, Hon. Thomas M. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis, Horn, and Norton.
    Staff present: Victoria Proctor and Hana Brilliant, 
professional staff members; David Marin, communications 
director/counsel; Melissa Wojciak, staff director; Jenny Mayer, 
clerk; Jean Gosa, minority clerk; and Jon Bouker, minority 
counsel.
    Mr. Davis. The meeting will come to order.
    Good afternoon and welcome. Today's hearing is the first in 
a series of hearings to examine the status of the District of 
Columbia's agencies overseen by court-appointed receivers. 
Across the Nation there have been five public agencies that 
have at one time or another been placed under the supervision 
of a court-appointed receiver. However, each of these 
receiverships was short lived and quickly reformed and returned 
as a functioning agency of the government.
    There has never been a jurisdiction in the United States 
with more than one agency in receivership except for the 
District of Columbia. Presently there are three outstanding 
agency receiverships in the District, the Child and Family 
Services, the Commission on Mental Health Services, and the 
Corrections Medical Receiver for the District of Columbia jail. 
Each of these agencies has languished in receivership for a 
substantial period of time and has continued to be plagued by 
systemic problems in the delivery of services. Each agency's 
inadequacies have been resistant toward the comprehensive 
reforms needed for them to return to the District's 
jurisdiction.
    Now, the D.C. Housing Authority which is also under 
receivership is an exception to the situation. The Housing 
Authority has been faced with similar mismanagement problems; 
however, the appointed receiver has been successful in 
overhauling the District's public housing system. The Housing 
Authority is currently the only agency on track to be 
successfully returned to the District government.
    These three troubled agencies have demonstrated extreme 
deficiencies in the delivery of their expected services. 
Children placed under the care of Child and Family Services are 
often juggled from an abusive or neglectful home into an 
equally dangerous foster home and are left forever emotionally 
and psychologically scarred.
    The Commission on Mental Health Services operations have 
actually become worse since becoming a receivership. There are 
currently more mentally ill, homeless people on the streets 
than ever before. Group homes for the mentally ill are poorly 
run and neglected and treatment is difficult to come by. The 
lack of improvement in their services has recently led the 
receiver to resign.
    The D.C. jail medical services receivership's financial 
management is in dire straits. For example, the receiver 
recently issued a contract to a private entity which had the 
D.C. contract as its only contract and had never before been in 
business at a cost of three times the national average.
    This year alone these three ailing agencies combined will 
cost the District of Columbia taxpayers $352 million in court-
controlled spending. While these agencies are in the 
jurisdictional hands of the court system, the District of 
Columbia government is powerless to provide any direction in 
their operations, yet is left to foot the bill. Therefore, 
Delegate Norton and I have joined together to introduce H.R. 
3995, the D.C. Receivership Accountability Act of 2000, to 
induce substantial reforms within the receiverships. H.R. 3995 
will provide management guidance to these receivers and make 
them more accountable to the D.C. government. There is a strong 
need for immediate legislative correction action to force 
reforms, and we will be marking up this vital piece of 
legislation at the conclusion of the hearing.
    Our hearing today is focused on the Child and Family 
Services Agency receivership, which was recently brought under 
the glare of the public spotlight with the tragic death of 
young Brianna Blackmond. While Brianna was the under the care 
of the Child and Family Services Agency, her life was 
tragically cut short at 23 months of age by a blunt force 
trauma injury to the head. As the father of three children 
myself, I can say that stories such as Brianna's stab you in 
the heart and leaves you wondering in amazement how could this 
have happened.
    Unfortunately, Brianna's death is not a story of a one-time 
case slipping through the cracks of an otherwise well-
functioning child welfare system. Brianna is just one example 
of many heart-wrenching stories of children adversely affected 
by the systemic problems of the District of Columbia's child 
welfare system. The sordid history of the Child and Family 
Services Agency, started over a decade ago with the LaShawn A. 
v. Barry case, was filed by the American Civil Liberties Union. 
Plaintiff LaShawn A. was brought to the Child and Family 
Services Agency by her homeless mother when she was nearly 2 
years old. At the time of the lawsuit LaShawn A. was 7 and had 
developed severe emotional problems likely to last into her 
adulthood and may have suffered sexual abuse because of 
inappropriate placement and poor followup by District 
officials.
    Another shocking story is of plaintiff Kevin, 11 at the 
time of the case, who had spent his entire life in foster care. 
At 8 he was so suicidal that he was admitted to a hospital 
where he put himself in a trash can and asked to be discarded 
because he was worthless.
    In 1991, the U.S. District Court Judge, Tom Hogan, ruled 
that the District's child welfare system failed to protect the 
children from physical, psychological or emotional harm, and it 
violated Federal law, District law and the constitutional 
rights of children. Following the court's decision, the 
District of Columbia and the plaintiffs developed a 
comprehensive remedial order to correct the significant 
management and service delivery problems in the city's child 
protection, foster care and adoption services programs.
    After 3 years, the Child and Family Services Agency failed 
to comply with the court order and was placed under court-
supervised receivership. Five years later, under the leadership 
of Mrs. Ernestine Jones since 1997, the Child and Family 
Services Agency fails to meet the required reforms outlined by 
the court order. This was alarmingly evident in the Brianna 
case.
    Brianna and her seven siblings were placed under the care 
of the Child and Family Services Agency on May 5, 1998, when a 
neglect report was filed by neighbors who had seen the children 
digging through trash dumpsters scrounging for a morsel of food 
and dressed in soiled clothing. Four times during the 
children's stay in the legal and physical custody of the Child 
and Family Services Agency from May 1998 to December 23, 1999, 
their mother, Charrisise Blackmond, petitioned for custody of 
her children. Each time the court denied that Mrs. Blackmond 
was able to meet the needs of her children and was only allowed 
supervised visitation with them. But in November 1999, 
homeless, Mrs. Blackmond moved in with a friend, Angela 
O'Brien, as an illegal tenant in a subsidized housing unit. 
Angela O'Brien herself was no stranger to the child welfare 
system. In 1998, her four children were removed from her care 
because of allegations of abuse. The O'Brien children were 
later returned because of a lack of proof that O'Brien was the 
abuser.
    On December 1, 1999, there was yet another custody hearing 
planned for Brianna. By law, every social worker is to file a 
status report to the presiding judge before a hearing is 
scheduled to take place. As in Brianna's case, this practice is 
rarely followed. The day before the hearing was to take place 
Superior Court Judge Evelyn E.C. Queen canceled the hearing and 
rescheduled it had for mid-January 2000.
    However, when Mrs. Blackmond's attorney filed an emergency 
motion to return Brianna to her mother in time for Christmas, 
Judge Queen ruled to return Brianna and another sibling to her 
mother. Judge Queen made this ruling without holding a custody 
hearing, without seeing or speaking to Brianna's social worker 
and without consulting the city's corporation counsel.
    On December 23, 1999, Brianna and her siblings were taken 
by a new social worker, not familiar with their case, to their 
mother and dropped off in front of the O'Brien house. She never 
took the time to examine the living conditions in the home or 
to even determine whether this was truly Mrs. Blackmond's legal 
residence.
    For 2 weeks no one from the Child and Family Services 
Agency paid a followup visit to the family. No one from the 
Child and Family Services Agency investigated Brianna's welfare 
on January 3, 2000, when her mother called a neighborhood 
health clinic to report that her daughter was ``shaking 
uncontrollably.'' Mrs. Blackmond brought her to the clinic, but 
never removed her from the car and canceled her scheduled 
appointment. No one paid attention to Brianna's well-being when 
her mother failed to bring her to the clinic the next day for 
her rescheduled appointment. A social worker finally visited 
the O'Brien home a day later and called the police. But it was 
too late. Brianna was taken to Children's Hospital barely 
breathing and unconscious from a blunt force trauma injury to 
the head. She died shortly thereafter.
    Brianna's homicide is currently under investigation by the 
Metropolitan Police Department and is under a confidentiality 
ruling by Judge Queen. Therefore, many of the facts surrounding 
this case aren't known. Fingers are being pointed in every 
direction by every agency involved to place blame for this 
tragic death.
    Seven agencies shared the responsibility of protecting 
Brianna Blackmond from harm, and yet seven agencies failed to 
help her. This case clearly reveals a breakdown not only within 
Child and Family Services Agency, but with the intergovernment 
agency relationships governing children who are innocent 
victims of abuse and neglect.
    Today we will be taking an in-depth view into impediments 
to reforming the Child and Family Services Agency receivership. 
After 5 years dwindling as an agency separate from the District 
of Columbia's government, decisive action needs to be taken to 
enact progressive reform. Children in the District of Columbia 
need a functioning Child and Family Services Agency to look out 
for their well-being when their home environment is not safe. I 
look forward to hearing from the our testifying witnesses to 
determine what immediate actions need to be taken to prevent 
further tragedies from occurring.
    I yield to Mrs. Norton for her statement. Then we are going 
to hear from our distinguished whip, who has taken a personal 
interest in this case.
    Tom, we appreciate your being here today.
    [The prepared statement of Hon. Thomas M. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T0581.001
    
    [GRAPHIC] [TIFF OMITTED] T0581.002
    
    [GRAPHIC] [TIFF OMITTED] T0581.003
    
    [GRAPHIC] [TIFF OMITTED] T0581.004
    
    [GRAPHIC] [TIFF OMITTED] T0581.005
    
    [GRAPHIC] [TIFF OMITTED] T0581.006
    
    [GRAPHIC] [TIFF OMITTED] T0581.007
    
    [GRAPHIC] [TIFF OMITTED] T0581.008
    
    [GRAPHIC] [TIFF OMITTED] T0581.009
    
    Ms. Norton. Thank you very much, Mr. Chairman. I also want 
to welcome Mr. DeLay to these hearings.
    I appreciate the quick action and serious attention of 
Chairman Tom Davis to problems in receiverships that control 
three important D.C. functions. When the Chair learned of these 
problems, he asked me to join him in initiating a GAO study of 
the District's receiverships, beginning with the receivership 
for the Child and Family Services Agency. We began there 
because of the tragic and clearly preventable death of the 
infant, Brianna Blackmond. The confusion and uncertainty in 
assessing responsibility for the child's death. And because the 
evidence of disarray that the tragedy brought to public view 
made it clear that other children under the care of the 
receivership may not be safe.
    We also will hold hearings and have requested GAO reports 
on the DC Jail Medical Receivership, where there has been 
evidence of excessive costs and irregular procurement 
practices; and the Mental Health Receivership, whose problems 
are so severe that that a receiver was recently asked to 
resign.
    The Public Housing Receivership will end later this year 
and the agency will be returned to District control. That 
receiver, David Gilmore, who stands out for the success of his 
tenure, took a very complicated agency with the longest history 
of failure and dysfunction and reformed all of its functions--
operations, social services, physical infrastructure, and 
public safety. Hearings and action by the Congress on these 
receiverships are necessary because the courts, and not the 
District government, have authority over these functions.
    Courts, necessarily, depend upon the receivers and the 
monitors of the receivers that the courts appoint. The evidence 
is already clear that receivers in the District often function 
as independent operators outside of the laws applicable to DC 
elected and appointed officials and personnel, without 
guidelines concerning appropriate operational management and 
procurement standards, and with little of the accountability of 
other managers in the District.
    We are all aware that, tragically, foster care services 
almost everywhere in the country look much like the District's. 
Nevertheless, the senseless death of a helpless infant, and the 
continuing responsibility for thousands of other children under 
the care of the CFSA receivership, raises the most serious 
questions about the progress of this receivership and 
eliminating the problems that necessitated its creation in the 
first place.
    As an analytical and policy matter, neither Chairman Davis 
nor I would judge a receivership by one tragedy, even one as 
indisputably unnecessary as the death of the infant Brianna. At 
the same time, the failure of literally every adult and every 
institution responsible for Brianna has provoked understandable 
outrage from everyone who has heard the tragedy of avoidable 
errors that led in a straight line to this child's death. 
Nothing that we have learned since has relieved our fear that a 
similar tragedy could not occur again. Therefore, even before 
the final GAO reports are in, we feel compelled by what we 
already know to move legislation.
    Chairman Davis has joined me in sponsoring H.R. 3995, the 
D.C. Receivership Accountability Act of 2000, which we will 
mark up today. It compels receivers to meet the same standards 
the public has a right to expect from any official charged with 
the care of children, and other residents, and of any other 
official privileged to allocate taxpayer funds.
    My concern with the record of these receiverships is 
increased because the agencies were taken from the District by 
the courts because of systemic failure by the city. Yet the 
receivership agencies apparently have not themselves, always 
been closely and effectively supervised by the receivers and 
the monitors, and improvements have been torturously slow. The 
CFSA receivership is on its second receiver after the first one 
brought too little improvement. The continuing failures 
culminating in Brianna's death are particularly troubling 
considering that the receiver has been given by the court, 
``all necessary authority to ensure full compliance.''
    Unlike the receivers, the D.C. government is installing the 
most rigorous set of management and accountability systems. I 
applaud Mayor Williams for his initiative in appointing his own 
special counsel to coordinate matters between the receivers and 
the District and to work on a transition of these functions to 
the District.
    Years ago, the city failed the children and other residents 
these functions were designed to serve. Today, we hear whether 
one receivership has done any better. At the end of these 
hearings on all the receiverships, we will know whether the 
right question is would the District do better or could the 
city do any worse.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Norton follows:]

    [GRAPHIC] [TIFF OMITTED] T0581.010
    
    [GRAPHIC] [TIFF OMITTED] T0581.011
    
    Mr. Davis. Thank you very much.
    Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. I simply want to commend 
you for rapid action on this and Ms. Norton for her proposal 
before us.
    I'm delighted to see the Majority Whip here. He knows more 
about adoption than most people in this country. And I think 
you've got an issue that is very important that we resolve. So 
thank you for your efforts.
    Mr. Davis. Thank you very much. We will move to our first 
witness.
    We're honored to have here today our Majority Whip, 
Congressman Tom DeLay from Texas. He's not only taken a 
personal interest in the Child and Family Services Agency 
because of his strong concerns and advocacy for child issues, 
but Mr. DeLay not only talks the talk, he walks the walk. He's 
been very active and this is a part of his life. And his 
personal interest in this has been very empowering to this 
subcommittee.
    Tom, I can't tell you how thankful we are to have you today 
and for your activity in this.

STATEMENT OF HON. TOM DeLAY, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. DeLay. Thank you, Mr. Chairman and Ms. Norton. I really 
appreciate you holding this hearing. It's a vitally important 
issue not only for the children here in Washington, DC, but 
across the Nation, because I see an opportunity here to 
actually do something that the Nation can look at and use as a 
model, and I hope we don't--and I know this committee won't--
miss this opportunity.
    I really applaud the efforts of the subcommittee and the 
efforts of the individuals that we will hear from on the panels 
today for their hard work thus far in addressing the challenges 
faced by the District's child welfare system.
    I met with Mayor Williams a few months ago and I was very 
impressed with the Mayor. I was not only impressed with the 
kind of person he is, but his understanding of the needs of 
abused and neglected children in Washington, DC, having been a 
former foster child himself before he was adopted. It was clear 
to me at the time that concern with the efficacy of our systems 
of intervention and treatment on behalf of abused children at 
the Federal, State and local levels supersedes all politics and 
demographics and turf battles and the like. Mayor Williams' 
commitment to meeting the needs of the District's children at 
risk for and suffering from abuse and neglect is very clear, 
and I'm certain that they will benefit under his 
administration.
    My wife, Christine, and I have been foster parents to 
several adolescents over the past few years, and Christine and 
my daughter serve as court-appointed special advocates [CASAs], 
under the auspices of child advocates of Ft. Bend County in my 
home State of Texas. We have become very well acquainted with 
the child welfare system through our experiences with our 
foster children and through our involvement with CASA; and I 
want to share with you some of the ways our county sought to 
help abused kids and our overburdened social work and legal 
system.
    Let me say, however, before I begin, as we look at reform 
in the District and, if I have my way, reform all over the 
country, let's remember that the means--the system, with all 
its divisions and standards and social workers and judges and 
attorneys and public officials--leads to an end. And that is 
the protection of innocent children who have been or are being 
hurt by their parents or caregivers.
    America must face this problem. What adults are doing to 
children in this country is abominable. We have to face it and 
we have to deal with it. We owe these children our firm 
commitment that the systemic problems we know exist will be 
addressed and corrected and that we will expeditiously seek new 
and creative ways to make the best interest of the child--the 
best interest of the child--of paramount concern in each and 
every child abuse investigation, intervention and 
rehabilitation.
    One of the most effective helps to the overburdened public 
sector can be the private sector, and it's vitally important. 
You must have the community involved or it does not work; you 
must have that personal contact of people that care, that come 
from the community. And the involvement of the community 
assures vital and necessary community buy-in. The community 
buy-in means increasing awareness as to how child abuse affects 
and, in many cases, precipitates other social problems like 
substance abuse, crime and delinquency.
    One way to involve the community and to address the 
systemic problems resulting from heavy case loads and the 
consequent incomplete and/or late reports to the courts is the 
utilization of trained, specialized volunteers like Court-
Appointed Special Advocates to supplement the investigative 
work of social services.
    CASAs are citizen volunteers appointed by the courts in 
cases of abuse or neglect. Those volunteers go through 30 hours 
of intensive training with child welfare professionals and are 
an independent voice in the process. Their whole focus is the 
best interest of the child. They focus exclusively on what's 
best for the child. Many social workers have upwards of 50 open 
cases at a time and are overwhelmed with court dates and 
paperwork deadlines. CASAs, though, handle just one or two 
cases at a time so that they can give each child sustained 
personal attention.
    There are nearly 900 CASA programs throughout this country, 
including one here in the District of Columbia. Any principal 
in a case can refer the case to CASA--a social worker, an 
attorney, a judge, a therapist, and others. At this time, 
however, only approximately 10 percent of substantiated abuse 
cases have been assigned to a CASA in DC, and I think that's a 
major part of the problems that we have seen in this city.
    Another way to bring in the private sector and assist 
social services is to support and utilize child advocacy 
centers like Safe Shores here in DC. I am pleased, very 
pleased, to see Kim Shellman here today. She was kind enough to 
give some Members of Congress a tour of her facility last year, 
and I was very impressed with her and her staff, although her 
building is too small and she needs to move. She needs help 
from the community in that regard.
    Child Advocates of Ft. Bend in my District is a not-for-
profit organization that works on behalf of child victims of 
abuse from birth to age 18 through various advocacy programs, 
providing services to these children and their families through 
specially trained community volunteers and staff.
    Each program was specifically designed to supplement the 
overburdened child welfare and legal systems.
    Under the umbrella of Child Advocates of Ft. Bend is the 
Children's Advocacy Center, a collaborative effort by local law 
enforcement agencies; Ft. Bend Child Protective Services; and 
the District Attorney's office. The goal of the Center is to 
make the investigation, treatment and prosecution of child 
sexual assault and severe physical abuse more child-focused and 
timely by centralizing assessment and treatment services while 
coordinating professional efforts.
    Also operating out of the Child Advocacy Center is our 
local Court-Appointed Special Advocates program. Referrals to 
the Center come from law enforcement and CPS, referrals for the 
CASA program come from family court and CPS. Having one 
centralized agency providing services to abused children and 
their families and working in tandem with social services law 
enforcement and the courts enables programs to combine their 
strengths and lessens competition for funding, volunteers, 
community awareness, etc.
    I know that the needs and the character of Ft. Bend County 
are different from the needs and character of the District, and 
I am a firm believer that one size does not fit all when it 
comes to the needs of communities. I do believe, however, that 
many of the issues you are looking at today are not unique to 
any locale.
    In urban cities and in suburbia you will find overworked 
and underpaid social workers, lack of systemic coordination and 
collaboration, and difficulty in meeting deadlines. You will 
find children languishing in foster care when they should be 
released for adoption. You will find a system that is well-
intentioned, but ill-equipped to care for the increasing number 
of children who need protection and permanency.
    My challenge to you today as you examine the efficacy of 
the reforms undertaken by the District of Columbia is to 
remember that this is about the child who has died and will die 
again when deadlines come and go and reports are not completed. 
This is about children who depend upon us to intervene when the 
family can't or won't keep them safe from harm.
    I encourage to you draw from the resources in your 
community. I urge you to look for new ways of addressing old 
problems. Look outside the box. See what Safe Shores, your 
Child Advocacy Center can do to improve collaboration and 
coordination among your child welfare professionals. Give CASA 
and other volunteers a chance to help your hard-working social 
workers and invest in their community at the same time.
    Again, I commend you, Mr. Chairman, for holding this 
hearing today, and I really thank you for the opportunity to be 
here.
    [The prepared statement of Hon. Tom DeLay follows:]

    [GRAPHIC] [TIFF OMITTED] T0581.012
    
    [GRAPHIC] [TIFF OMITTED] T0581.013
    
    [GRAPHIC] [TIFF OMITTED] T0581.014
    
    [GRAPHIC] [TIFF OMITTED] T0581.015
    
    [GRAPHIC] [TIFF OMITTED] T0581.016
    
    [GRAPHIC] [TIFF OMITTED] T0581.017
    
    [GRAPHIC] [TIFF OMITTED] T0581.018
    
    Mr. Davis. Mr. DeLay, thank you very much. Let me just ask 
a couple of questions.
    How long have you been involved with CASA, and going back 
to Ft. Bend, how did this get started and do you have more 
volunteers than you need, or how does it work?
    Mr. DeLay. Well, Fairfax County lost a great person and 
that was my wife when we moved away and went back to Texas 
about 6 years ago. And she got involved in----
    Mr. Davis. We lost a great teacher, too.
    Mr. DeLay. That's right at Langley High School.
    At that time, she was looking for something to do and the 
CASA program in Ft. Bend was struggling and she got involved 
with it at that time 6 years ago and has been a CASA ever 
since. We've been foster parents for almost 4 years.
    Mr. Davis. Does CASA fund through a block grant? Does it 
have small local contributions? So it's a very cost-effective 
program, because most of the people are volunteers?
    Mr. DeLay. Well, CASA--at least in Ft. Bend County it is 
different for every chapter of CASA; they're pretty well 
independent around the Nation. But Ft. Bend County--I'm glad 
you asked this question. When I got involved with CASA in Ft. 
Bend County, I insisted that they receive no government funds, 
that if they did I was out of there; because I truly believe 
that you have to have that personal connection of the 
community, through fundraising activities and volunteerism, to 
be able to provide that personal touch to these children.
    The Ft. Bend County CASA and the Ft. Bend Child Advocacy 
Center receive grants from foundations, but most of the money 
is raised right there in Ft. Bend County; and through the 
efforts of the community, it's one of the best charities in the 
county. So it is vitally important.
    Yes, government has their role to play in this, and we all 
understand that, but to have accountability and to have that 
personal commitment, you must have it involved in the--the 
community funding, the CASA programs and the child advocacy 
centers.
    Now, some people behind me may disagree with that.
    Mr. Davis. Is the training done by the government or does 
the program pay for its own training?
    Mr. DeLay. The program pays for its own training, sets up 
its own training. It's advised and supervised by the Child 
Protective Services of Texas, and they work together. And 
sometimes they work in an adversary role; sometimes CASA gets 
onto Child Protective Services for not following up and doing 
what they think is right and in the best interest of the child.
    Mr. Davis. It sounds like, from your testimony, that the 
city is not utilizing this the way it ought to if only 10 
percent of the cases are going there.
    We also have a CASA program. In fact of one our State 
legislators, Vivian Watts, is executive director in Fairfax and 
it has worked wonders. You know, you change the world a kid at 
a time, and that's what these programs emphasize.
    Mr. DeLay. I might say, Mr. Chairman, that it is vitally 
important that the court system drives it all. If the courts 
are not focused on the best interest of the child and use 
CASAs--most of the time, I don't even know; I can't answer the 
question if it's law in Texas to use a CASA. But it's usually 
the judges. The judges appoint a CASA because they want someone 
that is totally focused on the best interest of the child in 
that process. So it's also really important to have a court 
system set up in the family court examples that we see around 
the country.
    Mr. Davis. Do you have separate family courts in Texas, or 
would this just be a general part of the court system?
    Mr. DeLay. Actually, we don't have separate family courts 
by statute, but we do have separate family courts by setup. You 
just sort of--these are all the--at least in my county.
    Now, in Harris County they do have a separate family court 
system. So it really depends on each county.
    Mr. Davis. Thank you. I can't thank you enough for your 
involvement in this, what it means to the committee, and giving 
us the impetus hopefully to move forward on this and not just 
hold hearings to hear what is going on.
    So thank you very much.
    Ms. Norton.
    Ms. Norton. Well, I don't have any questions for the 
Majority Whip. I will say to him that I will be interested to 
inquire of the witnesses who come forward, given your 
testimony, why only 10 percent of the CASA abuse cases have 
been assigned to volunteers.
    I do want to say to you, Mr. DeLay, that I very much 
appreciate the life you and your wife have lived in personal 
dedication to these children. Talk is real cheap on this, and 
you've been on the line for these kids. Your presence here, I 
appreciate as well, because it signals to the receiverships and 
it signals to the city the importance of this issue to the 
Congress and the importance of these children to the Congress.
    And finally, Mr. DeLay, I have heard that you and Mrs. 
Clinton will soon receive awards from the Orphan Foundation.
    Mr. DeLay. Yes. I'll help you sell tickets to that one.
    Ms. Norton. See what his job is in the Congress.
    In any case, very seriously, Mr. DeLay, I believe that on 
both sides of the aisle, where your work for children is well 
known, there will be agreement that such an award is well 
deserved.
    Mr. DeLay. Thank you. I'm really looking forward to 
appearing with the First Lady because she does deserve 
recognition for her work in adoption and she's--and child 
abuse. So she's very deserving.
    Ms. Norton. I think you've been appropriately paired.
    Thank you, Mr. Chairman.
    Mr. Davis. The gentleman from California. Any questions?
    Mr. Horn. No thanks.
    Mr. Davis. Tom, thank you again for taking the time.
    I would like now to call our second panel of witnesses to 
testify: Ms. Cynthia Fagnoni, the Director of Education, 
Workforce, and Income Security Issues for the U.S. General 
Accounting Office; Ms. Judith Meltzer, the deputy director for 
the Center for the Study of Social Policy; and Mrs. Ernestine 
F. Jones, the general receiver of the District of Columbia 
Child and Family Services, who will address the current state 
of affairs in the Child and Family Services Agency.
    As you know, it is the policy of this committee that all 
witnesses be sworn before they testify. So I ask you to stand 
with me and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis. We've read the testimony, so to afford 
sufficient time for questions, I would like you to limit your 
opening remarks to 5 minutes. You can highlight what you want 
to highlight and all written statements will be made part of 
the permanent record.
    I would like to start with Mrs. Fagnoni and then follow it 
with Ms. Meltzer and Ms. Jones.

    STATEMENTS OF CYNTHIA M. FAGNONI, DIRECTOR, EDUCATION, 
WORKFORCE, AND INCOME SECURITY ISSUES, U.S. GENERAL ACCOUNTING 
  OFFICE; JUDITH MELTZER, DEPUTY DIRECTOR, THE CENTER FOR THE 
    STUDY OF SOCIAL POLICY; AND ERNESTINE F. JONES, GENERAL 
  RECEIVER, THE DISTRICT OF COLUMBIA CHILD AND FAMILY SERVICES

    Ms. Fagnoni. Good afternoon, Mr. Chairman and members of 
the subcommittee. I am pleased to be here this afternoon to 
discuss the status of the court-appointed receivership for the 
District of Columbia's child welfare system.
    Today, I will discuss our preliminary observations on the 
progress the receivership has made to comply with the 
requirements of the court order and key elements that are 
essential for additional reform to occur. My remarks are based 
on our ongoing work for the subcommittee.
    Regarding the changes the receiver has made to date, 
improvements have focused on several important areas. To 
address the lack of leadership and accountability, the receiver 
restructured the organization and developed a mission 
statement, agency goals and a comprehensive strategic plan. The 
receiver's actions to identify specific milestones, completion 
dates and expected outcomes represent the initial steps in 
establishing the requisite managerial and planning frameworks 
for improving the child welfare system. Of critical importance 
in supporting these frameworks is the development and 
implementation in October 1999 of the FACES information system. 
However, to ensure that this system provides the necessary data 
for workers to assess family situations over time, historical 
information on children still needs to be added.
    Some changes instituted by the receiver address the 
District Court's concerns about staff shortages and the quality 
of social work performed. To address these concerns, the 
receiver obtained authority from the Mayor's office to directly 
process incoming personnel and anticipates being fully staffed 
by June 2000. In addition, the training project initiated in 
January 1999, and operated for the agency by Virginia 
Commonwealth University, trained 734 staff as of September 
1999. Training has covered a variety of topics such as special 
needs adoption, coping with grief and loss, and family 
violence.
    Many court-ordered requirements relate to improving 
services for children. The receiver has taken several steps to 
address these deficiencies. These include establishing a 
central 24-hour hotline for reporting suspected child abuse and 
neglect and launching DC Kids, a health management system and 
provider network. DC Kids is designed to provide foster 
children with more timely medical screening and comprehensive 
medical and psychological assessments, among other things.
    In addition, to develop the required community-based 
services to prevent the placement of children in foster care, 
the receiver has continued to work with the eight Healthy 
Families/Thriving Communities Collaboratives to develop and 
provide the necessary services. The receiver recently reported 
that these preventive services appear to have been effective 
because fewer children entered out-of-home care in fiscal year 
1999 than in previous years.
    To address the shortage of appropriate placements for 
children who must be removed from their homes, the receiver is 
working with the Casey Family Program and the Annie E. Casey 
Foundation to recruit additional placement resources and foster 
homes.
    Despite this progress, there is considerable improvement 
that still needs to be made. Further movement toward meeting 
the court-ordered requirements will depend on the District's 
ability to create an environment in which additional reforms 
can occur.
    In order to function effectively, child welfare agencies 
need a rich array of services to meet children's needs. Rarely 
does a single agency have control over acquiring all the needed 
services. Therefore, strong collaboration among all 
stakeholders who play a role in helping children and their 
families is essential to obtaining the necessary services. 
These stakeholders include private provider agencies, the 
police department, substance abuse and mental health agencies, 
agency legal counsel and local government leaders.
    Although stakeholders in the District have taken initial 
steps to work together in limited areas, District officials 
have told us that cooperative working relationships still do 
not fully exist. The lack of these relationships impedes the 
agency's ability to conduct its work effectively. The effects 
of inadequate collaboration include delays in the Health 
Department issuing foster home licenses and difficulties in the 
ongoing transfer of resources, such as Temporary Assistance for 
Needy Families assistance and child care that would benefit the 
agency's operations.
    Our previous work on child welfare issues shows that 
collaborative approaches help to enable key child welfare 
system participants to develop joint solutions to crosscutting 
problems and more effectively make decisions on individual 
child welfare cases. For example, jurisdictions in five States 
we visited convened multidisciplinary advisory committees to 
work on resolving turf battles and to develop and implement 
reforms. Committees were typically composed of representatives 
from key groups such as child welfare agencies, attorneys, 
judges and other advocates.
    Other jurisdictions built collaboration by pooling or 
blending resources and funding to obtain the needed services. 
For example, Boulder County, CO, pooled its child welfare 
allocation from the State with funding from the mental health 
agency and the youth corrections agency to provide joint 
programming and placement decisionmaking for adolescents in 
need of out-of-home care in group or residential settings.
    Some collaborative efforts intervene at key points on 
individual cases to gather and share comprehensive information 
among participants. For example, Day One Conferences in North 
Carolina's District 20 include the parents, child welfare 
caseworkers, guardians ad litem, public and mental health 
liaisons, attorneys, public education liaisons, child support 
liaisons and law enforcement officers. These meetings provide a 
forum to arrange services for the family immediately and 
provide an opportunity to reach agreement on many aspects of 
the case outside the courtroom.
    Because the receivership is intended to be a temporary 
vehicle for correcting specific problems in the agency, the 
court and the District will at some point need to determine 
when the receivership should end and governance of the child 
welfare agency should transfer back to local government. 
However, unless collaboration among key stakeholders is 
imbedded in each organization's day-to-day operations, the 
long-standing cycle of organizational divisiveness will 
continue and it will threaten attempts to successfully reform 
the child welfare system and hinder the ability of the District 
to keep its children safe.
    This concludes my oral statement. I would be happy to 
answer any questions you or other Members may have. Thank you.
    Mr. Davis. Thank you very much.
    [The prepared statement of Ms. Fagnoni follows:]

    [GRAPHIC] [TIFF OMITTED] T0581.019
    
    [GRAPHIC] [TIFF OMITTED] T0581.020
    
    [GRAPHIC] [TIFF OMITTED] T0581.021
    
    [GRAPHIC] [TIFF OMITTED] T0581.022
    
    [GRAPHIC] [TIFF OMITTED] T0581.023
    
    [GRAPHIC] [TIFF OMITTED] T0581.024
    
    [GRAPHIC] [TIFF OMITTED] T0581.025
    
    [GRAPHIC] [TIFF OMITTED] T0581.026
    
    [GRAPHIC] [TIFF OMITTED] T0581.027
    
    [GRAPHIC] [TIFF OMITTED] T0581.028
    
    [GRAPHIC] [TIFF OMITTED] T0581.029
    
    [GRAPHIC] [TIFF OMITTED] T0581.030
    
    [GRAPHIC] [TIFF OMITTED] T0581.031
    
    [GRAPHIC] [TIFF OMITTED] T0581.032
    
    [GRAPHIC] [TIFF OMITTED] T0581.033
    
    [GRAPHIC] [TIFF OMITTED] T0581.034
    
    [GRAPHIC] [TIFF OMITTED] T0581.035
    
    Mr. Davis. Ms. Meltzer.
    Ms. Meltzer. Good afternoon, Chairman Davis, Representative 
Norton and other distinguished members of the committee. Thank 
you for this opportunity to testify today.
    I am Judith Meltzer, deputy director of the Center for the 
Study of Social Policy. Our center serves as the court-
appointed monitor of the child welfare system under the LaShawn 
A. v. Williams lawsuit. We've been involved as the court 
appointed monitor since 1992, with a brief hiatus when the 
agency was first placed in receivership between 1995 and 1997.
    The LaShawn remedial order provides a blueprint for 
necessary reforms to the District's child welfare system. Its 
requirements are designed to assure the children who are abused 
and neglected are protected from harm and that children and 
families are provided appropriate services and supports to 
ensure children's safety, promote their positive development 
and assure them loving, stable and permanent homes.
    As monitor, the Center is responsible for reviewing the 
agency's progress in meeting the requirements and expectations 
of the order. The Center reviews and compiles data provided by 
the agency monthly, reviews compliance with law, policy and 
procedures, tracks the progress of individual children's cases 
and categories of children, including child fatalities, and 
conducts a variety of independent studies of the system's 
progress and the quality of case practice.
    During 1999, for example, the Center conducted a case 
review of over 800 case records, randomly selected to represent 
all areas of practice from investigations to adoption. We also 
prepare public reports. Both of those last two reports have 
been attached to my written testimony and were provided to the 
committee.
    The District's child welfare system has received a lot of 
negative attention in the past few months, attention which has 
highlighted the significant problems that must be rectified. 
While many of those who work in and with the child welfare 
system are impatient, outraged and frequently distressed about 
the continued noncompliance with the standards incorporated 
into the LaShawn order, the truth is that the system today, 
while far from fixed, is indeed substantially improved from the 
way it operated prior to the time that the lawsuit was heard by 
the Federal District Court in 1991. This is not to say that 
practice is acceptable, but merely to acknowledge that some 
progress has occurred.
    I want to spend most of my time commenting on what remains 
to be done and offer some recommendations for moving forward. 
However, it is important to understand today's problems in the 
context of where the system began.
    The written testimony describes in greater detail some of 
the areas that have in fact improved: increased staffing, staff 
training, foster home licensing and training, management 
information systems, improved adoption planning, and increased 
Federal revenue maximization. More children and families have 
access to help through the Healthy Families/Thriving 
Communities Collaboratives. Training and social work support, 
although not enough, are now available to relatives who step in 
and care for their kin when parents cannot do so. There is a 
new health care system for children in foster care called DC 
KIDS; a unitary hotline is now finally in place so that the 
District accepts all calls of abuse and neglect through one 
telephone number.
    There were a record number of adoptions of children in 
foster care in 1999. In fact, the number of finalized adoptions 
grew by almost 200 percent since 1995. I think it's important 
to recognize these accomplishments while at the same time 
insisting that things must continue to improve and must improve 
more quickly.
    Clearly, while the agency is on the road to more acceptable 
practice, it has not yet achieved compliance with the standards 
of the remedial order. And I won't go into all of the 
problems--you've heard them today--but too many children still 
linger in foster care for too long. Too many children and 
families are split from their siblings. Too many teenagers live 
in group homes. There aren't enough placement resources. There 
is a shortage of social workers. There remains a really 
untenable split between responsibility for abuse and neglect in 
this system. There are critical resource shortages, 
particularly substance abuse services, mental health services 
and housing services.
    The next year must be one in which demonstrable progress is 
made in improving outcomes for children. From the monitor's 
perspective, there are five critical recommendations that I 
wish to make. The first is the Child Welfare Agency must 
recruit and maintain an adequate number of trained social 
workers, supervisors and social work aides. Once hired, the 
agency must take steps to address the communication, 
supervision, training and other morale problems that contribute 
to staff leaving too soon.
    Second, the agency needs to increase the numbers and types 
of placement resources available for children with an emphasis 
on more family foster homes, therapeutic foster homes and 
adoptive homes. More placements need to be developed in the 
Districts--in the neighborhoods where children and families now 
live.
    Third, funding must be made available to implement the 
resource development provisions of the remedial order with 
particular emphasis on mental health services, substance abuse 
services, day care services and funding for a range of 
community-based services and support.
    I want to talk a little bit more about the budget issues. A 
lot of attention of this receiver has been diverted and devoted 
to fighting a battle to gain the resources necessary to keep 
the agency afloat. Approved budgets for fiscal 1999 and 2000 
have been insufficient to operate the agency properly, and have 
stymied headway on many of the reforms required under the 
remedial order. The receiver's fiscal 2001 budget request 
includes funding for those requirements of the remedial order 
which need additional resources.
    Congress can be helpful in providing the needed resources 
to implement the LaShawn order. The District government has 
never provided the funding necessary to achieve the mandates of 
the remedial order. Arguably, until recently, the agency did 
not demonstrate the capacity to adequately spend additional 
resources. But it is my view that they do now have that 
capacity and must be given the resources that they have 
requested.
    Congress can readily provide some additional Federal 
funding to the agency by allowing that the District's Title IV-
E reimbursement for foster care and adoption services be 
established at the Medicaid reimbursement rate. In all other 
States, the Title IV-E reimbursement rate for foster care 
payments and adoption subsidies is set at the Medicaid matching 
rate. However, in the District, although Congress raised the 
Medicaid matching rate to 70 percent several years ago for 
health care services, it stipulated in the legislative history 
that this increase was only applicable to health care benefits. 
This distinction could be altered by Congress. By my estimate, 
allowing the District to claim Title IV-E reimbursement at the 
Medicaid matching rate, as every other State is allowed, would 
provide an addition of approximately $8 to $10 million in 
Federal funds annually for child welfare services.
    My fourth recommendation is the quality of social work 
practice with children and families needs continued attention 
and improvement. This means paying attention to what goes on in 
those daily contacts between a social worker and a family.
    Fifth, there must be accelerated efforts to improve the 
working relationships between the receivership, the police, the 
Superior Court, and the Office of Corporation Counsel, as well 
as efforts to resolve problems with processing interstate 
compact approvals for the placement of children in Maryland and 
Virginia.
    The receivership must be held accountable for improving 
results for children and families, but we must recognize that 
the child welfare system involves complex relationships between 
the Child Welfare Agency, the police, the courts and the legal 
system. The receivership must lead the way, but they cannot fix 
the system by themselves.
    The District Office of Corporation Counsel, for example, 
must be given the resources to adequately provide legal 
representation to CFSA and its clients. Similarly, the 
unworkable separation of responsibility for responding to abuse 
and neglect in the District must end.
    Finally, the Mayor must help resolve the 
interjurisdictional barriers to timely processing of interstate 
compact approvals for placement of children across State lines 
in Maryland and Virginia.
    CFSA has been in receivership since 1995 and there is 
justifiably widespread frustration that desired outcomes for 
children and families have not been achieved. Doing so will 
require new action by the receiver and her staff, additional 
financial and human resources, strong leadership from within 
District government and continued cooperative work between 
CFSA, the Superior Court, the Office of Corporation Counsel and 
the Metropolitan Police.
    Work needs to begin now to plan the transition of CFSA back 
to District government. But it cannot begin unless there is a 
demonstrated commitment to adequately fund the legitimate needs 
of abused and neglected children and their families in the 
District, and to work cooperatively with the court-appointed 
receiver to implement the LaShawn remedial order.
    Thank you very much.
    [The prepared statement of Ms. Meltzer follows:]

    [GRAPHIC] [TIFF OMITTED] T0581.036
    
    [GRAPHIC] [TIFF OMITTED] T0581.037
    
    [GRAPHIC] [TIFF OMITTED] T0581.038
    
    [GRAPHIC] [TIFF OMITTED] T0581.039
    
    [GRAPHIC] [TIFF OMITTED] T0581.040
    
    [GRAPHIC] [TIFF OMITTED] T0581.041
    
    [GRAPHIC] [TIFF OMITTED] T0581.042
    
    [GRAPHIC] [TIFF OMITTED] T0581.043
    
    Mr. Davis. Ms. Jones.
    Ms. Jones. Chairman Davis, and members of the subcommittee, 
thank you for this opportunity to provide you with information 
regarding the reforms that are being made to improve services 
to children and families in the District. I'm going to do a 
shortened version of my testimony because the version submitted 
provides a lot of the background and detail.
    We are making progress in our efforts to achieve 
compliance, but I would be the first to admit that this job is 
much tougher than I expected. There were some big surprises 
with respect to the work conditions and the level of 
dysfunction in the day-to-day operations that make the 
challenge a lot more difficult to overcome. However, I am 
confident that we can achieve the goals that have been set.
    In a prior statement I received, there were several issues 
that the committee had asked that I consider addressing. So I 
will try to make a brief comment on each of those areas.
    The first area had to do with identifying risk--at-risk 
children and families and making services and supports 
available to them. The most effective way to make critical 
services available to at-risk children and families is through 
the development of a system of preventive and support services. 
We have done this in the District through the development of 
the Healthy Families/Thriving Community Collaboratives. 
Services through the collaboratives are tailored to the unique 
needs of each community and include case management, preventive 
and support services, parent education, substance abuse 
education and treatment, foster home recruitment, respite care, 
father support groups, emergency and transitional housing, and 
support services for teens.
    To make it easier for the public to report instances of 
suspected abuse and neglect, we have put in place a single 
reporting hotline, 202-671-SAFE.
    For many children, the most appropriate caregiver is a 
relative. This is our fastest growing service. While this 
program is not a requirement of the MFO, it is one that we will 
have to address because of the need. As a result, we were 
selected to meet a kinship care demonstrationsite by the 
Department of Health and Human Services in supporting the 
children with out-of-home care.
    In this effort, we have increased support to children 
requiring out-of-home care in the following ways: We've 
increased our board rate by $4.40 per day, a 28 percent 
increase. We've implemented a foster parents support unit to 
improve foster parents' access to support services. We've 
established the Teen Life Options program for youth in 
independent living that includes educational and life skills 
development.
    We've implemented the comprehensive health care system for 
children in out-of-home care, DC KIDS. This system is a time-
sensitive process to ensure that every child entering care is 
given a full health screening and good followup care.
    We have requested funding in the fiscal year 2001 budget to 
develop a Kinship Care subsidy program for relatives who become 
legal guardians.
    We've implemented a system of regular staffing of cases to 
ensure that permanency plans are developed for all children.
    And we've established a special unit, which we call the 
Abscondence Unit, to quickly locate children who have run away. 
This unit also includes a mentoring program to reduce 
recidivism.
    We've implemented the Adoption and Safe Families Act. And 
while the legislation was delayed in being implemented, we 
proceeded to put in place the processes and regulations 
necessary to begin to implement that goal.
    We're attempting to meet the needs of--special physical and 
emotional needs of children who need special attention. This is 
an area where we have made the least amount of progress. Our 
ability to make progress in this area is directly tied to the 
ability to secure additional resources to either stimulate new 
development or to expand the current capacity. This is our 
highest priority in the budget for fiscal year 2001.
    We are particularly short of services for parents and 
children who require substance abuse and mental health 
treatment. We are projecting that more than 1,700 families will 
need treatment and services for substance abuse or mental 
health. This is particularly true and particularly inadequate 
for adolescents, pregnant women or women with young children 
who have dual diagnosis, such as having mental health and 
substance abuse problems collectively.
    We are required by the MFO to assure that children and 
their families receive mental health services to prevent 
neglect and abuse and to avoid placement disruptions and to 
provide for child safety. We believe that there is a need for 
these kinds of services for at least 200 additional children, 
especially victims of sexual abuse who require more intensive 
therapy.
    With respect to improving our services for improvement of 
the quality of social work practice, this agency has in the 
District one of the highest educated work forces in child 
welfare in the Nation. All of our social workers are required 
to have Masters level degrees. We provide an additional 80 
hours of initial training to all new social workers before they 
are assigned caseload responsibilities, as well as ongoing in-
service training to improve their skills and knowledge about 
practice.
    With the assistance of a professional consultant, we are 
developing performance standards for all positions in the 
agency. These standards will become the benchmarks for 
performance evaluation.
    We have a Quality Assurance office with staff that are 
responsible for reviewing cases to determine the level of 
compliance with Federal and local policies and procedures.
    Caseload size is dictated by the requirements of the MFO 
and it is a major factor in the quality of practice. 
Unfortunately, because of the high turnover of the Masters 
level social workers, we are not meeting this requirement at 
this time.
    I am pleased to report to you, however, that as of last 
week we have interviewed, selected, made offers and sufficient 
employees or--prospective employees have now accepted positions 
which will enable us to fill all of our vacancies by the first 
week in June, most of whom will begin work during the month of 
May.
    We have taken steps to improve the quality and to help 
stabilize our work force by instituting a career ladder for our 
social workers, making it possible for experienced social 
workers to be compensated at a level commensurate with their 
experience.
    In the District of Columbia child abuse and neglect are not 
under a single State agency, as is the case elsewhere. There is 
a fine line that separates child abuse and neglect in many 
situations with the distinction often resulting from the 
special judgment that is made by a social worker or, as in the 
District of Columbia, by a police officer. This situation is 
further exacerbated by the fact that a CFSA social worker does 
not have the authority to remove a child from an immediate 
danger, only the law enforcement authority may take this 
action.
    Legislation is to be introduced in the City Council in the 
near future to end this fragmentation of child protection 
services, thereby allowing for greater uniformity in policies 
and procedures.
    With respect to the interstate compact, there are no 
substantive issues regarding the interstate compact with the 
State of Virginia. These placements are handled through a 
private agency, Lutheran Social Services, that is licensed in 
the State of Virginia. In the State of Maryland, we have 
encountered some difficulties, primarily due to the large 
number of children that are placed there, especially those that 
are placed with the relatives. We are in the process of 
attempting to develop a border agreement between the District 
and the State of Maryland which will allow us to develop a more 
workable process that can accommodate the volume of cases that 
are located in Maryland.
    We have submitted a budget this year that will become our 
attempt to indeed fulfill meeting the remaining requirements or 
at least initiating services to address the remaining 
requirements in the modified final order. This budget request 
includes funding required not only to implement the remaining 
requirements, but also to meet the needs of the families and 
children in the District of Columbia.
    We have instituted a system for monitoring of the 
performance of all of our contractors. We have children placed 
both in State and out of State in group facilities.
    All of our contracts are monitored by a monitoring unit. 
They are reviewed and may be visited day or night, weekends or 
at any point during a day. The intent is to allow us to ensure 
that contractors are indeed performing.
    While I cannot say to you today that we are in compliance 
with all of the requirements of the MFO, I can say that we have 
made substantial progress. I am confident that we now have the 
infrastructure in place that will allow us to make steady 
progress toward compliance. We have an administrative 
organization that allows responsibility and accountability to 
be maintained. We have a personnel system in place that ensures 
that all jobs are clearly defined and roles and 
responsibilities are clear. We are in the process of developing 
performance standards.
    We now have the capacity to provide initial and ongoing 
training. We have a fully automated work environment that 
tracks cases as well as fiscal operation. We have a new chief 
financial officer who has made progress in shoring up all of 
our fiscal operations. I am confident that we can manage the 
funds and ensure accurate and prompt payments of bills for 
services rendered.
    Our working relationship with the other District government 
agencies is improving as well as our work with the court. We 
will continue our close coordination in working with the deputy 
mayor.
    It is my opinion that we will be able to make substantial 
progress during the remainder of fiscal year 2000, and with 
approval of the budget requests for fiscal year 2001, we can 
make substantial progress toward meeting the remaining 
requirements of the modified final order.
    Thank you again for the opportunity to address this 
committee. We hope you will support our efforts to achieve 
compliance.
    Mr. Davis. Thank you very much.
    [The prepared statement of Ms. Jones follows:]

    [GRAPHIC] [TIFF OMITTED] T0581.044
    
    [GRAPHIC] [TIFF OMITTED] T0581.045
    
    [GRAPHIC] [TIFF OMITTED] T0581.046
    
    [GRAPHIC] [TIFF OMITTED] T0581.047
    
    [GRAPHIC] [TIFF OMITTED] T0581.048
    
    [GRAPHIC] [TIFF OMITTED] T0581.049
    
    [GRAPHIC] [TIFF OMITTED] T0581.050
    
    [GRAPHIC] [TIFF OMITTED] T0581.051
    
    [GRAPHIC] [TIFF OMITTED] T0581.052
    
    [GRAPHIC] [TIFF OMITTED] T0581.053
    
    [GRAPHIC] [TIFF OMITTED] T0581.054
    
    [GRAPHIC] [TIFF OMITTED] T0581.055
    
    [GRAPHIC] [TIFF OMITTED] T0581.056
    
    [GRAPHIC] [TIFF OMITTED] T0581.057
    
    [GRAPHIC] [TIFF OMITTED] T0581.058
    
    [GRAPHIC] [TIFF OMITTED] T0581.059
    
    Mr. Davis. What I think I'm going to do, with the 
permission of the committee, is have the next panel come up and 
testify so we can have everyone up here together. If you want 
to take a break for 15 minutes, you're welcome to do that and 
come back, or you're welcome to sit there through everyone 
else's testimony. But we have Carolyn Graham, Grace Lopes and 
Kimberley Shellman, if they'd like to come up.
    It's the tradition of the committee that we swear in our 
witnesses. I just ask you to stand and raise your right hands 
before you proceed.
    Carolyn Graham is the deputy mayor for children, youth and 
families. Grace Lopes is the special counsel for the 
receivership and institutional litigation, and Kimberley 
Shellman, as Tom DeLay noted earlier, the executive director of 
the District of Columbia Children's Advocacy Center.
    I understand you're going to address the areas of reform 
that need to be enacted by the Child and Family Service Agency 
in efforts to return the agency to the District. So raise your 
right hands.
    [Witnesses sworn.]
    Mr. Davis. Ms. Graham, why don't you go first, followed by 
Ms. Lopes and then Ms. Shellman. Like I said to the others, 
feel free to stay, but if you want to get up--because we're 
probably then going to have a series of questions for all six 
of you at the conclusion of that, so if you want to get up 
during their testimony, it should take about 15 minutes.
    Try to stay to 5 minutes. We've read the testimony. We have 
questions ready, I think, based on that, but highlight what you 
would like to highlight. Thank you.

STATEMENTS OF CAROLYN GRAHAM, DEPUTY MAYOR FOR CHILDREN, YOUTH 
   AND FAMILIES, DISTRICT OF COLUMBIA; GRACE LOPES, SPECIAL 
    COUNSEL, RECEIVERSHIP AND INSTITUTIONAL LITIGATION; AND 
  KIMBERLEY A. SHELLMAN, EXECUTIVE DIRECTOR, THE DISTRICT OF 
              COLUMBIA CHILDREN'S ADVOCACY CENTER

    Ms. Graham. Good afternoon, Congressman Davis, 
Congresswoman Norton and other members of the subcommittee. I 
am Carolyn Graham, deputy mayor for children, youth and 
families, and on behalf of Mayor Anthony A. Williams, I welcome 
this opportunity to come before you today as we begin in 
earnest the dialog about the imminent return of the Child and 
Family Service Agency back to the District of Columbia's 
governing structure.
    Mr. Davis, Ms. Norton and members of the committee, Mayor 
Williams has asked me to convey to you today his willingness to 
work with you and other members of this committee and Congress 
to ensure a speedy and efficient return of these most crucial 
services to the District of Columbia.
    The Williams administration applauds the work that the 
current receiver Ms. Ernestine Jones has sought to accomplish 
over her 2\1/2\ year tenure, often in the face of extreme odds 
ranging from the lack of appropriate levels of funding to meet 
the basic court requirements, to agency isolation from other 
significant governmental bodies simply because of the court-
imposed status of receivership.
    The administration has closely examined this receivership 
and became intentionally involved with it soon after assuming 
office. Mayor Williams' general concern about children and 
youth and his personal commitment to children in the child 
welfare system, particularly foster care, led in October 1999 
to the development of a white paper on the District of 
Columbia's child welfare system. The white paper was the result 
of a collaborative effort involving members of the Mayor's 
immediate staff, members of the mayoral-appointed Advisory 
Council on Permanent Homes for Children, the receiver, the 
court-appointed LaShawn Monitor, the presiding judge of the 
D.C. Superior Court Family Division and other child welfare 
advocates from throughout the District of Columbia.
    The District of Columbia in this paper found that the 
Department of Health, for example, which is responsible for 
approving foster care and adoption homes for children in the 
District, had over 100 applications for foster care yet to be 
processed by the licensure and regulatory division of the 
Department of Health. Likewise, in the Department of Fire and 
Emergency Medical Services, which provides fire inspections for 
potential adoptive and foster homes, we found an additional 100 
applications awaiting processing. In both instances, homes 
could not be approved for the placement of children because of 
the backlog in critical partner agencies and a lack of 
coordination between these agencies and the Child and Family 
Services Agency.
    Given these and other mitigating circumstances outlined in 
the report, it soon became evident to the administration why 
well over 60 percent of the District's children in foster care 
no doubt live in Maryland.
    I might add here also that as you heard, child abuse and 
neglect services are bifurcated here in the District of 
Columbia. We're one of the few jurisdictions that have such a 
system. The Metropolitan Police Department has responsibility 
for investigative work associated with crimes against children. 
The Child and Family Services Agency, on the other hand, has 
responsibility for managing issues of neglect. These are not 
coordinated services aimed at supporting the needs of children. 
We recognize that we must bring these services back together. 
We cannot do so as long as the Child and Family Services Agency 
is under the management of the courts.
    Based on the findings of the white paper, the Mayor 
launched an ambitious and aggressive campaign to promote 
permanency for children in the District and reinvigorated 
efforts to improve coordination and cooperation between the 
receiver and critical partner agencies within the District of 
Columbia. Other important developments such as the Mayor's 
support of the use of TANF funds for the agency's work in 
strengthening families this fiscal year, and his support of 
full funding for the fiscal year 2001 budget to allow the 
agency for the first time, to fulfill the requirements of the 
modified final order, an indication of the mayor's commitment 
to supporting the child welfare agency as it prepares to return 
to the District. The Mayor has also entered into a memorandum 
of understanding, which is designed to help expedite efforts to 
make permanency determinations for children in foster care.
    A joint outreach and recruitment effort between the 
administration and the receiver is in effect intended to 
encourage District residents to consider becoming adoptive and 
foster parents. On May 10 the Mayor's Safe Passage to 
Permanency: Bring Our Children Home, initiative will be the 
subject of the 10th annual Peirce Warwick symposium. The 
symposium is being done in collaboration with the receiver and 
one of our community partners, the Family and Child Services 
Agency here in Washington.
    For fiscal year 2001, we have proposed that tobacco funds 
be used to create an intergenerational community, particularly 
for large sibling groups, special needs children and teen 
parents in foster care. Our vision is that this community will 
be modeled after the SOS villages, which, by the way, is 
conducting a feasibility study here in the District of 
Columbia, which is funded by Freddie Mac Foundation. One of our 
community-based partners also, the Law Project, has drafted 
guardianship legislation that we will be advancing to the 
council prior to its summer recess. We've also exempted social 
work positions from any buyout or early out options and savings 
opportunities designed to ensure budget compliance. This has 
been done in order to ensure that the agency will not lose 
essential personnel.
    We are also working with the receiver on the interstate 
compact issue that she currently has with Maryland, and are 
developing legislation that is aimed at the consolidation of 
the child abuse and neglect services here in the District.
    As is apparent from our ongoing efforts, the District is 
actively engaged in efforts to improve efficiency and 
effectiveness within the receivership, as well as in efforts to 
ensure a smooth transition of the agency back into the 
governmental fold. This hearing is indeed a welcome opportunity 
for discussions, debate and cooperation to ensure a successful 
reintegration of these services.
    Last, I might add here that I recently joined a group of 
individuals on a trip to Texas to observe first-hand several 
communities' work in effectively coordinating the child welfare 
system's child abuse and neglect programs. I came away from 
that experience, Mr. Davis and Ms. Norton and Mr. DeLay, 
convinced that when the services are returned to the District 
of Columbia, that the child assessment model must certainly be 
done here so that we realize greater and better outcomes for 
our children who are often victims of adult predators.
    In conclusion, let me say I thank you for this opportunity 
to speak to you as distinguished members of this committee 
today on the D.C. Child and Family Services Agency receivership 
and will be delighted to answer any questions that you might 
have.
    Mr. Davis. Thank you very much.
    [The prepared statement of Ms. Graham follows:]

    [GRAPHIC] [TIFF OMITTED] T0581.060
    
    [GRAPHIC] [TIFF OMITTED] T0581.061
    
    [GRAPHIC] [TIFF OMITTED] T0581.062
    
    [GRAPHIC] [TIFF OMITTED] T0581.063
    
    [GRAPHIC] [TIFF OMITTED] T0581.064
    
    [GRAPHIC] [TIFF OMITTED] T0581.065
    
    [GRAPHIC] [TIFF OMITTED] T0581.066
    
    [GRAPHIC] [TIFF OMITTED] T0581.067
    
    Mr. Davis. Ms. Lopes.
    Ms. Lopes. Good afternoon, Chairman Davis, Ms. Norton, 
members of the committee, Mr. DeLay. My name is Grace Lopes, 
and I am the Mayor's special counsel for institutional reform 
litigation and receiverships. This is a position that was 
created by Mayor Williams proactively in response to the 
proliferation of litigation implicating the operation of D.C. 
agencies.
    My testimony today will focus on three areas. First, I will 
describe the role of special counsel, what the function is, how 
it works. Second, I'll describe the progress I have made in my 
3 months, just about 3-month tenure on the job. And third, I'll 
describe the scope of my responsibilities as those 
responsibilities translate into the LaShawn A. litigation.
    So, first, with respect to my role as special counsel, it 
is a multidimensional role. I'm responsible for developing and 
implementing the legal strategies or the legal architecture for 
successfully resolving the institutional reform litigation in 
the District, including the litigation related to the 
receiverships and developing the transition plan for transition 
back to District of Columbia control. I'm responsible for 
coordinating legal strategies in all of the institutional 
reform cases and to coordinate those strategies with policy 
objectives and agency operations.
    I'm also responsible for conducting ongoing risk 
assessments with respect to all our institutional litigation, 
so that we can act proactively where risks are identified in 
order to avert further court intrusion into the operations of 
our government in the future.
    I'm responsible for monitoring and, if appropriate, 
supporting the work of the receivers to facilitate their 
compliance with the orders and ultimately accelerate the 
transition back to District of Columbia control.
    I'm also responsible for intervening as necessary with all 
District of Columbia agencies and agency heads to ensure there 
is an appropriate structure to support the compliance effort 
and to resolve issues as they are identified.
    And finally, I serve as the Mayor's liaison with the court 
monitors, with the special masters, with the receivers, 
plaintiff's counsel, judges and community members vis-a-vis the 
court orders.
    I thought it would be helpful to explain the current status 
of these receiverships. There are five lawsuits in the District 
of Columbia which culminated in courts imposing receiverships. 
They've been imposed by the Federal court as well as our local 
superior court, and they implicate the following agency 
operations: the Commission on Mental Health Services, the Child 
and Family Services Agency, the Department Of Public and 
Assisted Housing, general and special education at the 
District's juvenile detention facility at Oak Hill, and medical 
and mental health services at the District of Columbia jail.
    We anticipate that with respect to two of the 
receiverships, they will be terminating this year: the 
receivership regarding public and assisted housing and the 
receivership at the D.C. Jail. Both of those receiverships will 
terminate according to court-ordered schedules, which require 
their termination this year upon certain findings. We 
anticipate those findings will be made and those receiverships 
will be timely resolved.
    A third receivership involves a Superior Court order 
imposing the receivership that was reversed by the D.C. Court 
of Appeals on the District of Columbia's motion. The 
receivership remains in effect only because the plaintiffs in 
that case have pursued the appellate process, and the review 
process hasn't been exhausted. In all likelihood, we believe 
that the reversal will be affirmed and that education at the 
Oak Hill facility will be returned to the operation of the 
District of Columbia government in short order.
    With respect to the remaining receiverships, and there are 
two, they have been the two most problematic. There have been 
multiple receivers and those receiverships are not scheduled to 
terminate this calendar year.
    The first is the Dixon case, which is the case that 
implicates all operations of the Commission on Mental Health 
Services. Shortly after I began working for the Mayor in 
February, I conducted an assessment of all of the 
receiverships. I made a decision to focus on the Dixon case as 
a result of the assessment. I initiated negotiations with 
plaintiffs, and with the existing receiver. I obtained their 
agreement to transition out of the receivership. We presented 
an order to the court and have a transition plan that has been 
ordered by the court. Pursuant to that order, operations of the 
Commission on Mental Health Services will be returned to the 
control of the District of Columbia government by as early as 
January 1, 2001, or as late as April 1, 2001, but no later. 
That order is in effect, and we are currently supporting the 
work of the transitional receiver and developing the 
infrastructure to transition back to the D.C. Control Board as 
seamlessly as possible.
    With respect to the final receivership, that is the LaShawn 
receiver and the subject matter, of course, of today's 
proceedings. I am currently involved in evaluating the LaShawn 
receivership, and on the basis of that evaluation, I will be 
developing a strategy to transition that receivership back to 
District of Columbia government control. I expect that 
evaluation to be completed within 60 days, and at the 
conclusion of that time period, I expect to initiate a 
transition strategy and to attempt to do that as cooperatively 
as possible with all stakeholders.
    With respect to my other responsibilities beyond 
receivership cases, I have and continue to intervene in the 
nonreceivership institutional reform cases. I am currently 
participating in negotiations to develop disengagement plans in 
several nonreceivership cases, and we're beginning to work on 
corrective action/compliance monitoring infrastructures that we 
hope to embed in all of the District's agencies in order to 
prevent further court involvement in the future.
    The intrusion by the courts into the operation of local 
government in the District represents the culmination of 
decades of noncompliance with court orders. We hope that as we 
demonstrate our ability to comply with the law and remedy many 
long-standing deficits in management and resources, that we can 
return the operation of these agencies to the District of 
Columbia government. We expect to accomplish this productivity 
in an appropriate and methodologically sound fashion.
    I am delighted to testify before you today and look forward 
to answering any of your questions or concerns.
    Mr. Davis. Thank you very much.
    [The prepared statement of Ms. Lopes follows:]

    [GRAPHIC] [TIFF OMITTED] T0581.068
    
    [GRAPHIC] [TIFF OMITTED] T0581.069
    
    [GRAPHIC] [TIFF OMITTED] T0581.070
    
    [GRAPHIC] [TIFF OMITTED] T0581.071
    
    Mr. Davis. Ms. Shellman, thanks.
    Ms. Shellman. Good afternoon. I am Kimberly Shellman, and 
I'm the executive director of the D.C. Children's Advocacy 
Center, known as Safe Shores to the children we serve, and 
obviously to Mr. DeLay as well. Thank you for your kind remarks 
about our center. We are delighted that so many Congress 
Members have come down and visited this center. We are still 
working on some of our District officials, but the deputy 
mayor's been really helpful with that.
    I come here today, first of all, as a child advocate. So 
I'm in a very different role than the other people here today. 
So I hope to speak very frank and very forward and deal with 
the consequences of what I'm going to say today when I go back 
to the office.
    I am here today with several board members in support of my 
testimony, several staff members--I always have a lot of staff 
support--as well as Nancy Chandler from the National Children's 
Alliance, so--who is in support of our testimony. We are the 
front-line people, and I'm going to talk to you briefly, and I 
have shortened my remarks about what we see the problems are at 
the front line at the lower level, which is the impact of the 
children. So I won't be able to speak as much to the broader 
overall issues of what I've heard today as I will be able to 
speak to the actual impact on the children.
    The Children's Advocacy Center, as many of you know, is a 
nonprofit organization in private-public partnership with the 
D.C. government and the Federal Government. The center 
facilitates and coordinates the work of an interagency, 
multidisciplinary team which investigates allegations of 
physical and sexual abuse of children. When utilized, and not 
always utilized in the District, the center is the Metropolitan 
Police Department's primary resource for all investigations 
involving child victims and child witnesses, including cases of 
domestic violence and homicide.
    The creation of our multidisciplinary team is one that's 
done through the Children's Advocacy Center based on the 
Children's National Alliance model. Many of you have those in 
your jurisdiction, and I visited 5 in Texas, and I have visited 
over 30 centers in my 5-year tenure at the center. In the 
District of Colombia, the interagency team includes law 
enforcement, social services, prosecution, mental health 
workers, medical personnel and victim advocates.
    Safe Shores was created in 1995 as the result of a mayoral 
order and a lot of hard work and vision of a small group of 
District residents and professionals who saw the crying need to 
better serve child victims of abuse. We've been working very 
hard over the 5 years to build this support, and with all of 
the changes and turnovers within the government, it has been 
quite a struggle.
    The CAC is primarily responsible for coordinating initial 
investigations of child sexual abuse allegations in the 
District. This role has afforded us a very unique opportunity 
to view this systemic response to our children from a close-up 
perspective, a view that we are not often asked to share or 
inquired about, and so we are very grateful that you have 
considered our role as one which is worthy of giving you what 
we see. The view that we have is not a pleasant one.
    As a center and as a multidisciplinary team coordinator, we 
can clearly identify six problems that negatively impact our 
children's care and treatment, and they often result in further 
victimization or sheer neglect by the system itself. I will 
tell you that I have attached an exhibit A, which is what I 
have tried to draw the system for you, and I think the main 
thrust of what we like to say here today is I'm not sure how 
much progress any of us can make within this system design, and 
that is what needs to be looked at. The individual agencies 
cannot function within the system. I have checked with 
everybody on the details. Everybody says this is correct of 
what I've drawn, but this is it, and it's pretty sad.
    First, the current structure of the MPD for investigating 
child sexual abuse and physical abuse cases, there is no 
centralization of child abuse cases, and you will see how that 
impacts when you look at that chart on the first page, but you 
will see that in the case example that I have provided for you.
    Second, the long-standing statutory bifurcation of social 
services between Court Social Services and the Child and Family 
Services Agency, it is very difficult for the Child and Family 
Services Agency to do the monitoring of foster care on a case 
that they did not start, that Court Social Services started, 
and then once they decide that there's going to be a removal, 
CFSA gets involved. It's very difficult for Court Social 
Services to start a case and then have another worker in a 
totally different agency with a different agency head deal with 
responding and carrying into a followup, and often these two 
social workers don't even speak to each other because they're 
in separate agencies and have separate roles.
    Third, the long-standing statutory--I'm sorry, third, the 
current reporting system through the Child Abuse Hotline and 
what we consider to be shameful practices for how these reports 
are dispatched to the investigators. I am tired of seeing cases 
being faxed over to the MPD and being thrown in boxes. We need 
to make sure that we are treating our Child Abuse Hotline 
dispatches as we are treating 911 calls that are coming in with 
adult victims, and I cannot stress that enough.
    Fourth, the disjointed leadership structure, and this is 
something that I've made up. This is nothing official in the 
way that I'm putting this forward to you, but I'm trying to 
explain to you that we don't have a Governor that says, we're 
going to do this, and gets the community and all the agencies 
behind this. In the last 5 years, the leadership structure has 
resulted in the Corporation Counsel supervised by the Mayor; 
the MPD under the management of the Control Board; the D.C. 
Courts, including Court Social Services, under Federal arm as 
well as the United States attorneys that does the criminal 
prosecution. The Child and Family Services Agency has obviously 
been under a receiver.
    All of this creates great conflict and great turf wars that 
have hampered most of our attempts at multidisciplinary 
approaches to child abuse cases, and what you do not realize at 
the upper levels and you do on the front lines is that our 
children and families are hearing this and seeing this and 
getting caught in the middle of this on a day-to-day basis.
    Fifth, we are greatly concerned about the severity of the 
mental health problems of our children and youth in the 
District of Colombia today and the access to quality and 
available treatment for them. It is severe. We are working with 
children who are walking through the door on a sexual abuse 
allegation, and the therapist is saying that that is not the 
biggest impact of trauma on them that they are experiencing. It 
is a small piece of what is going on with our children. It is 
very scary, and as a community we are going to have to be 
prepared to recognize this, and I'm afraid that at this point 
we all really don't want to really look at what is going on. 
These children are young parents as well and they are raising 
children, and they have these problems.
    And finally, there is a lack of a--historical lack of a 
citywide strategic funding plan for child victims of 
maltreatment that has adversely impacted the prevention of 
future and further abuse of our children. It causes too much 
competition among the service providers. We are letting the 
funders tell us what they want to fund rather than us telling 
them what the needs of the children and families are, and 
because we're trying to survive as service providers, we're 
making up and creating trainings that we don't know that much 
about in order to ensure that we get some type of funding so we 
can survive, and there is something wrong with that.
    To address these issues, we are working closely with 
Carolyn Graham, the deputy mayor for children and youth, and we 
have never had this type of leadership or this type of interest 
or this level of understanding of these problems since Ms. 
Graham came on board in--early on in the year. So we're really 
excited about that.
    We are working in recommending a Crimes Against Children 
Unit within the Metropolitan Police Department, and I will be 
very frank in saying that I received a call 30 minutes before 
coming to this hearing from Assistant Chief Gainer that on 
Sunday there will be the beginnings of a centralization of 
child sex abuse and physical abuse cases within the 
Metropolitan Police Department. And I would like to thank 
everyone at this hearing for assisting in building up to this 
this week, and also the efforts of Carolyn Graham in this as 
well. She has been fighting with us. We have been advocating 
for this for a year, and I'm just glad that it has come to 
fruition, and we are looking for that follow-through by the 
police department.
    Second, we recommend that the bifurcation of social 
services end. We recommend that the receivership of Child and 
Family Services end, and that the agency be turned back over to 
the Mayor.
    I have heard a lot of conversation today. What we're seeing 
on the front lines is a lot of good workers leaving. We are 
seeing a lot of workers feeling that they're not supported, and 
a lot of people in social services looking to the Children's 
Advocacy Center for backup on cases, and we are not there to 
back them up on cases. Their supervisors need to be backing 
them up on cases.
    Finally and perhaps what we are most importantly 
recommending at this point is that the government of the 
District of Columbia, the U.S. Attorney's Office jointly 
collaborate with the Children's Advocacy Center and the 
National Children's Alliance to create a citywide child victim 
center that will house all of the interagency partners under 
one roof. The National Children's Alliance has made an offer to 
the District government and the Children's Advocacy Center that 
I and the center believe--and all of our board of directors--
should not be ignored by the government. We need to follow 
through on these private funds that have stepped forward to 
assist us. It is a national organization that has stepped 
forward, and that is very rare in the District that a national 
organization would assist at the local level.
    The new child victim center will house the National 
Children's Alliance headquarters, the Children's Advocacy 
Center, as well as the new Crimes Against Children Unit for the 
MPF, Corporation Counsel prosecutors, U.S. Attorney's Office 
prosecutors, U.S. Attorney's Office child advocate, the Child 
Protection Services Intake Unit, whatever form that is going to 
take between ending this bifurcation, and medical personnel 
under one roof, as is being done all across the country, and 
it's being done successfully.
    The proposed site for the center is the Gales School, 
located in less than five blocks from D.C. Superior Court. It 
seems that every time we identify a building in this city, we 
are told that that building is far more valuable than the 
children we are trying to serve. We are told that that building 
is too expensive to give to us. We are working closely with 
Carolyn Graham to secure the Gales School. I cannot impress 
enough that the less longer we hold off on getting this 
building, the quicker we can go forward and get this center 
built. It is a square brick building sitting on a corner that 
has not been utilized as a school since the 1940's. We need to 
move forward on that project.
    In addition, the center is going to serve all child victims 
and witnesses of physical abuse, sexual abuse, exploitation, 
neglect, homicide, and we want to take on the youth-on-youth 
violence as well. We want to have the identifying fact not be 
where did the event occur, what is the relationship of the 
perpetrator, but we want it to be it's a child victim, it goes 
to the new victims' center. It goes to the trauma assessment 
team. It goes to the Crimes Against Children Unit.
    We want to have the Crimes Against Children Unit and CPS 
located together and the hotline onsite so we do not have any 
more faxing problems.
    The center's going to house an expert forensic interview 
program, trauma assessment and treatment center, supervised 
visitation program that the courts have been crying for, and 
the medical exam program, as well as a child victim training 
center that we will share with the National Children's 
Alliance.
    In closing, I say that the ultimate goal of this center 
will be to ensure that all child victims, not just those that 
are chosen to come through the Children's Advocacy Center by a 
line detective, but all child victims will receive an immediate 
and appropriate response in order to facilitate the past that 
they have to navigate through this system following a report, 
whether that path is family and victim support, removal and 
foster care, reunification with caretakers or therapeutic 
treatment and healing. No matter what the path is, we will put 
them on the right path with the right support.
    As I stated before, I've provided with you a true case 
summary that the CAC has tracked during the past 2 years. You 
can imagine the impact that releasing this case is going to 
have in the District. This truly points out the problems that 
we are seeing, and it's absolutely obscene that track that 
those three children in the X case have been through in the 
system, and I encourage you to take time to read that. I've 
taken all the identifying stuff out, even more than I think we 
had to, but I still hope that it helps to show you what the 
problems are. We think that this case factually supports our 
concerns today.
    We strongly urge this committee to support our 
recommendations as well as the efforts of Carolyn Graham, 
deputy mayor for children and youth. We have great confidence 
in her efforts for our children.
    Thank you for this opportunity.
    Mr. Davis. Well, thank you very much.
    [The prepared statement of Ms. Shellman follows:]

    [GRAPHIC] [TIFF OMITTED] T0581.072
    
    [GRAPHIC] [TIFF OMITTED] T0581.073
    
    [GRAPHIC] [TIFF OMITTED] T0581.074
    
    [GRAPHIC] [TIFF OMITTED] T0581.075
    
    [GRAPHIC] [TIFF OMITTED] T0581.076
    
    [GRAPHIC] [TIFF OMITTED] T0581.077
    
    [GRAPHIC] [TIFF OMITTED] T0581.078
    
    [GRAPHIC] [TIFF OMITTED] T0581.079
    
    [GRAPHIC] [TIFF OMITTED] T0581.080
    
    [GRAPHIC] [TIFF OMITTED] T0581.081
    
    [GRAPHIC] [TIFF OMITTED] T0581.082
    
    [GRAPHIC] [TIFF OMITTED] T0581.083
    
    [GRAPHIC] [TIFF OMITTED] T0581.084
    
    [GRAPHIC] [TIFF OMITTED] T0581.085
    
    Mr. Davis. Now we have all six of you here, and we are 
going to go through a line of questions. I'm going to start 
with our whip Mr. DeLay. Tom, thank you for being here.
    Mr. DeLay. Thank you, Mr. Chairman. I appreciate your 
consideration of my time. I do have to leave, and I appreciate 
all your testimony, and there's so many questions, but I'm 
going to center around a couple.
    Ms. Meltzer, the thing that struck me about your testimony 
was the fact that unlike Ms. Shellman's testimony, most of your 
recommendation is more government, more funding, no changes. 
Are you looking at outside the box?
    Mr. Meltzer. Absolutely. I'm sorry if you come away with 
that impression from my testimony. The child welfare system 
will not be fixed unless the agency develops partnerships with 
the community in very different kinds of ways, and that is why 
as monitor, we have pushed so heavily for the development of 
community-based services and the work with the collaboratives 
in the neighborhoods. No matter how many social workers this 
agency gets, unless they change what is really going on at the 
level of interaction between children and families, it will not 
get better.
    I was trying in the recommendations to address things that 
I thought Congress could have some impact on rather than my 
feelings about what's necessary to change the system.
    Mr. DeLay. I'm hoping this committee can have impact on 
those other things through the dollar. It makes people listen.
    Ms. Jones, I noticed in your testimony, too, that there was 
very little--and I don't want to just focus on community--but 
it is so vitally important to make the things work that there 
was little mention of using community organizations, even 
faith-based institutions. Have you used community organizations 
other faith-based or any community help, and how have you?
    Ms. Jones. Well, I was trying to keep my testimony as short 
as possible, so I didn't go into a lot of detail. Yes. One of 
the areas that I've concentrated probably more of my time on 
that than anything else has been helping to develop the whole 
system of neighborhood-based service. What's unique about those 
services here in the District is those services are evolving 
from the community. In each of those eight collaboratives, the 
constituent groups that make up those collaboratives are 
neighborhood organizations, private agencies there, churches, 
other neighborhood-based groups. So that network, it's 
different in different wards. Each one--they pretty much follow 
the ward, but each one has its own organization.
    We have a contractual relationship with those neighborhood 
services to do a large part of our preventive services. One of 
the things, in my belief, needed to help strengthen and build 
the District child welfare is that you have to have a good 
preventive service system that helps families before they reach 
the point of needing us to intervene to remove children. That 
did not exist here. There was not a place where a family could 
get help until the situation resorted to neglect. Now, I'm sure 
years ago there were, but over the years those programs didn't 
continue. What we have done is rebuild that, and I'm very proud 
of the fact that what we're seeing is the impact of how this is 
beginning to help us stabilize the front door.
    In the agency right now among our contractual agencies we 
use a number of faith-based organizations, particularly with 
the adoptions. One church/one child is one of the programs that 
we have--that helps us with our adoptions. So yes, community 
services is a major part of the reform that we've made.
    Mr. DeLay. I appreciate that.
    Mr. DeLay, I really appreciate the work that you're doing 
and the Mayor's doing, but I want to ask you and Ms. Shellman 
the same question. I noticed in neither one of your 
recommendations did you address the courts in D.C. It has been 
my experience that unless you have judges that understand this 
and are professional and very well trained in child abuse and 
neglect law and family law, none of this can work because 
that's where it starts, it's with the judge when they take 
these kids out of homes.
    It also is the problem with Brianna was that--and I don't 
want to criticize the judge, but the judge failed on behalf of 
Brianna. Rotating judges don't work. You have to have a judge 
that believes in the best interests of the child and makes sure 
that all the other agencies, all the other services, everything 
else is being provided in the best interest of the child.
    What is being done in D.C. and how are--do you see changing 
what's going on, both you and----
    Ms. Graham. Thank you, Mr. DeLay. We certainly do agree 
with you that the courts, are a major element in this whole 
system reformation that must be made here. We're talking 
massive system reform, which would also include the courts. I 
think that Judge Hamilton, who has provided supreme leadership 
to this court here in the District, however we begin to prepare 
for his exit, we must begin to look at how we can begin to 
influence the new structure of the new court that comes into 
being.
    There is great desire among members of the bench to, in 
fact, to put in place a family court, and I think before long 
we will begin to see some real active movement in that area.
    Ms. Shellman. I will speak a little bit differently to that 
from our experience. I guess it's almost as if we see the 
courts as unable to change. We are unable to move them or 
change them, and I think a lot of it stems from the fact that I 
don't believe in your jurisdiction you have 59 judges that are 
appointed for a 15-year term and are not elected or have any 
accountability. Really, they get their 15 years, and as child 
advocates in the community, we have talked about that and found 
that as a concern. So we've also felt that there's not a lot we 
can do about that.
    Second, we had an open house after we opened the Children's 
Advocacy Center that was specially scheduled for the judges, 
and Chief Hamilton helped me put out the invitations and the e-
mails, and not one judge came. So I think that we have--you 
know, that's just one example--in many ways tried to reach out.
    I think that we as a community have also felt--when I say 
people working in child abuse, and I'm not sure that the people 
at CFSA and Corporation Counsel have felt this way--we have 
tried to offer some training to judges, and they don't want it 
unless it's by other judges, and then that's even difficult. So 
I do think this is something that we need to look at very, very 
closely because we do have a lot of concerns in that area. I 
don't think I have the answer to that, but perhaps you do.
    Mr. DeLay. Mr. Chairman, I have got one little answer, and 
I'll finish with this. It does speak--I know a lot of judges 
hate to be elected, but if you look at the history of child 
advocacies centers, and most importantly CASA, and CASA's not 
here, I don't think, unfortunately, but the chapters of CASAs 
that were created were created because political pressure was 
put on the judges, and the judges made them part of the court. 
And if you have appointed judges, just as you have tenure in 
teaching, and they have no accountability, they don't go and 
learn, they don't want to have family, these are very, very 
difficult cases, and it takes professionalism to handle them, 
and that may be a suggestion that the Mayor should look at and 
we ought to look at for D.C. in that regard.
    And the opposite is also true. When you have a judge that's 
shirking, there ain't nothing like child advocates putting 
political pressure to force them to do their job.
    Thank you, Mr. Chairman. I appreciate your courtesies.
    Mr. Davis. Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman. I have enjoyed 
reading all of your background here and your statements. Let me 
followup on the judge situation. To whom in the court system of 
the District of Columbia does the family court report?
    Ms. Shellman. There is a presiding judge of the Family 
Division which is under the chief judge.
    Mr. Horn. Chief judge of the whole District court system?
    Ms. Shellman. The chief judge of D.C. Superior Court, and 
then under that is the presiding judge of Family Division where 
judges are rotated in and out of that judge's division.
    Mr. Horn. How many judges serve in family court and over 
what period? Do they try to get out of that into some other 
part? Is that considered worthwhile by judges?
    Ms. Shellman. I can answer from my experience when I 
clerked for the presiding judge of the Family Division in 1994, 
but perhaps it has changed since then and someone else would 
like to comment on that.
    Ms. Meltzer. There is no family court. There is a Family 
Division, and judges rotate in and out. It used to be that the 
rotation was every 6 months. They have recently, in an attempt 
to deal with some of these problems, tried to extend that 
rotation to 2 years, but there are many of us who think that 
even this is inadequate.
    Mr. Horn. Did the General Accounting Office look at the 
transition of judges in how long they stay in a place, and 
where do they go after they have served in family court, this 
type of thing?
    Ms. Fagnoni. We didn't look at that specifically here in 
the District, but we did issue a report a year ago where we 
looked at the juvenile courts and some of the problems 
encountered. And as Mr. DeLay pointed out, the courts really 
drive a lot of what happens in the child welfare system. Our 
report focused on the problems the courts face, and part of 
that had to do with the judges rotating in and out, one judge 
making some initial decisions on a child and then a different 
judge being there when another decision had to be made. That 
wasn't in the best interest of the child to have that kind of 
rotation.
    So there have been some jurisdictions around the country 
that have tried to have, you know, one child/one judge sorts of 
approaches so the judge can carry through with a child as that 
case progresses. So there are some examples where jurisdictions 
have tried to deal with this problem.
    Mr. Horn. What would you say is the average months or years 
a judge sits in a family court situation?
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T0581.086
    
    [GRAPHIC] [TIFF OMITTED] T0581.087
    
    Ms. Fagnoni. I think it really varies. I don't think it's 
that surprising to hear of a 6-month rotation, and I think 
something like 2 years is more what other jurisdictions may be 
striving for at a minimum, but it is very tough to keep judges 
in that kind of position.
    Mr. Horn. Well, I think GAO ought to look at this and just 
give us a report--my management committee would like to know it 
also--give us a report on where do these judges want to really 
go, and if you're not going to have people that really care 
about children, we shouldn't have this type of situation. We 
either should set up a particular court that is the family 
court, and you know that you're going to expend at least 5 
years of your career, maybe 15 years, and get somebody that 
really cares about children, and I think that's what we need to 
focus on.
    And I think my instincts are probably right that they all 
want to go off to the more classy things that they can then go 
into a major law firm about, and I'd be curious if any judges 
have ever gone with anybody to the houses that house these poor 
kids. You ever know of any judge that showed up at the door?
    Ms. Lopes. Yes, Mr. Horn, there are judges who have. In 
fact, corporation counsel is here, I know, but I know that the 
presiding judge of the Family Division is known for doing just 
that sort of thing. So there are judges who do.
    The other thing, just one distinction, is that after an 
adjudication, many judges take the cases with them as they 
rotate through the other divisions of the court so that they're 
responsibilities vis-a-vis the cases do not cease when they 
move to another rotation in the court. They actually take those 
cases with them, which puts a tremendous administrative burden 
on the Office of Corporation Counsel and other agencies which 
have to deploy attorneys and other staff throughout the whole 
court.
    Mr. Horn. Well, along this line, I think, if I might 
suggest, Mayor Graham, that the Mayor of the city of Washington 
should talk to the chief judge and see if in the training--and 
lawyers, I realize, and lots of professionals say, don't tell 
me what to do, I went to law school, and blah, blah, blah, for 
whatever it is. That's nonsense. I happen to have been one of 
the founders of the National Institute of Corrections, and the 
Chief Justice of the United States called us in and said, look, 
you've got to do something to clean up State corrections in 
America. And over 20 years we did make major improvements, and 
we involved judges, we involved the DAs in a lot of these 
things, the probation officers, all aspects, because they were 
all blaming each other, and we got them in the same room to at 
least get it out on the table. And I think the chief judge 
should take a real interest in that and have them exposed to 
every single one of you in your particular agencies. That's the 
only way they're going to learn something and be sensitized to 
something.
    So let me move from that to, I guess, how often does--I 
assume most of these are wards of the Court, are they not, most 
of the children?
    Ms. Jones. Yes.
    Mr. Horn. All right. How often does a ward of the court 
have a visit from a social worker?
    Ms. Jones. That is one of the areas that has been 
problematic for us primarily because of the shortage of workers 
that I've had. But under normal circumstances we would expect 
that a worker would be visiting a child, depending on the 
importance of the case--new cases should be visited not less 
than every 2 weeks. A case that is problematic, we have a 
program-intensive family service where they may visit two to 
three times a week. It really depends on the case, but not less 
than one a month they should see and/or talk, and those visits 
may be in the home, may be collateral with the schools, with 
the child--taking the child to a health--for a health visit. So 
it can take different shapes and forms.
    We have not been able to meet that requirement on all of 
our cases, and I'd be the first to admit, because I have been 
short workers for most of this past year. What we've tried to 
do is to spread the workers we have and with our supervisors to 
at least get in a minimum number of visits wherever we can, but 
hopefully that will improve with the fact that we are now going 
to be pretty close to full staff.
    Mr. Horn. Let me ask a followup here. Does the person 
running the home in which the ward of the court lives, do you 
announce when you're coming, or do you just knock on the door 
and say, hi, we'd like to look around?
    Ms. Jones. It depends. For all of our children placed in 
group and residential facilities, we visit with or without 
planned appointments. There are regular appointments, but we do 
unannounced and announced visits, but most of our foster homes, 
most of them are announced, and one of the reasons is that many 
of our foster parents today work. We have very few foster 
parents who are at home. They work so that we generally have to 
schedule our visits around their availability or plan it with 
them because most work. It's one of the things that's changed 
in child welfare today that makes managing the system a lot 
different, because we aren't dealing with people who are at 
home for the most part.
    Mr. Horn. Anybody else like to comment on this business of 
home visits, should they be announced or unannounced, so forth?
    Ms. Shellman. I would like to comment on one thing that is 
not uncommon in the District of Colombia, and that is that the 
social workers, as was stated earlier, are handing their 
reports in that are due by statute 10 days ahead of time--
they're handing them in either the day of the hearing--some 
judges will require them to do it 2 days in advance, but what 
they're doing is they're handing it in the day of the hearing, 
and they are visiting the home the day before the hearing, and 
that's not uncommon. And it's difficult when they're trying to 
cover 59 courtrooms with these things to get out. A lot of the 
families will say that they know when they're coming because 
they know when the hearing date is, and they are coming on that 
day, and a lot of them just gear up for that day. That's the 
word on the street.
    Mr. Horn. Yes, Mayor Graham.
    Ms. Graham. Mr. Horn, I think that we're going to have to 
recognize that some of the requirements imposed on this system 
by the attorneys handling this case are highly inappropriate. I 
think that we have got to look at the whole staffing design of 
this child welfare agency. There is no reason why you cannot 
have other kinds of professionals and supporters of children 
and their needs and families visiting and making these home 
visits in support of the work that these social workers do. The 
requirement that you have got to have an MSW doing a home visit 
is absolutely ludicrous.
    Mr. Horn. That's what I was going to get to next, so you're 
clairvoyant here, and I put together when I was a university 
president a very fine MSW program, but I'd like to hear from 
you on the problem that do we really need MSWs to go and do 
this work, and if not, what would you suggest?
    Ms. Meltzer. May I speak to that? The remedial order 
requires that social workers be MSWs. That provision was 
actually put in there at the request of the District 
government, because the District licensing statute currently 
requires that you have to be a licensed MSW in order to perform 
social work. We have explored this issue with the receiver and 
with plaintiffs, and there is nothing in the remedial order at 
this time that would bar the receiver from using non-MSWs for 
these positions.
    So it is really a red herring. They ought to be hiring 
PSWs. One of the recommendations that we have pushed is that 
they move to creatively redesign the job descriptions and the 
work so that they can use non-MSW positions where they're 
appropriate.
    Mr. Horn. What I would say, and go ahead, but I just want 
to get one more thing into the brew, and that is, it's true, I 
think, of all professions, you can have a wonderful master's 
degree, you can even have a community experience and internship 
which decides whether you really want to do this or don't want 
to do with it, and if you decide you don't want to do with it, 
you ought to get out of there, because if you're not happy 
helping people that are in misery, you shouldn't be a social 
worker.
    And I might say my mother was director of county welfare, 
head of the--chief probation officer before that and head of 
the county hospital. So I grew up with the problems of social 
welfare, and my question would be, how do you check for a heart 
in terms of social workers? You can get an MSW, you can get 
people with As. How do you know they have got a heart? Sort of 
like the Wizard of Oz, but, you know, what kind of experiences 
have you had? I mean, do you get qualified people regardless of 
whether they have the degree or not? Some offer a bachelor of 
science undergraduate degree. OK. Who are the best types of 
people with what experiences that help children in this kind of 
situation?
    Ms. Jones. Well, let me take a stab at responding to that. 
I described that--I think I would put that in the language of 
what we call the old traditional social worker, the person went 
into this field because you cared about children, you cared 
about what others--that others did not have what you may have 
been able to acquire. And we wrestled with this for quite some 
time trying to figure out why workers turn over, and I think 
one of the things we are wrestling with in this country is that 
people now go into fields such as teaching, social work: it's a 
job, it's not a profession.
    And the difference--the way you begin to sort that out is 
how they begin to take on the responsibility of their job, when 
they are in training, when they begin to look at the various 
things that go on in their caseload, when you hear folks who 
are more concerned about whether or not I have a parking space 
or my office has a window or I have--can leave promptly at 
4:45. That, to me, is an indication of someone who's wanting a 
job.
    Now I say that, but I also want to make clear that there 
are substantial number of workers in that agency who are 
professionals. Many of them have stuck with me for this past 
year when we've been short and have run around and got those 
last-minute reports done because we didn't have other workers. 
But we have a large number in the past, and we'll probably have 
some more for whom it is a job and that's what we have to sort 
out.
    But let me also, while I'm--I have the microphone, respond 
to the issue of workers, or whether or not we can use the BA or 
MSW. Clearly I come from a background where I believe you can 
do a lot of the work we do with non-MSWs, but I had to deal 
with the hand I was dealt. Now, once that was changed and we 
were given flexibility, we have begun to look at it, and we 
have changed some. Our licensing workers, for example, no 
longer have to be MSWs, but that's also an issue I have had to 
battle in the newspapers because I was challenged on that, 
critiqued on that. A lot of the negative publicity began 
because I was seen as someone who was changing the standards of 
the profession. I have had to live with that, but that's a 
choice we had to make, and we are indeed looking to move where 
we can, where it does not denigrate the work, because there's 
work there that has to be done and should be done by 
professionally trained people.
    Children who come by way of the advocacy center more often 
than not do need professionally trained workers, but at the 
casework level, taking a child for an appointment, completing 
paperwork to do with interstate compact, that doesn't require 
an MSW, and we are taking steps. But I also have to juxtapose 
that with the dollars I have for how many staff can I hire 
because it will take more of those kind than it does MSWs.
    I think we're on the right road of getting a good balance 
on that, but it is going to take a few more months.
    Mr. Horn. Thank you for the passion with which you replied 
to that question. I can tell you care.
    Any other comments here? Mayor Graham.
    Ms. Graham. I think that it is--this work in the area of 
human service where we are dealing with the frailty of human 
life is a work that comes, I think, out of a context of the 
heart. It is a passion. Ms. Jones clearly has impressed me 
during my time and my interaction with her as having that 
passion. So does Ms. Shellman. It came out all over the table 
here today as we listened to them. This is--and this is not 
something that is acquired by a degree, you're absolutely 
right, and when it comes to nurturing and caring for and 
ensuring the safety of children, you don't have to be degreed 
to do that. And we are willing to work with Ms. Jones and Ms. 
Meltzer to make certain that we can modify these requirements 
in such a way as to support the children, and if it means 
taking on the unions, the union of social workers, we are 
prepared to do that.
    Mr. Horn. Congratulations.
    Thank you, Mr. Chairman.
    Mr. Davis. Thank you, Mr. Horn.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. First, let 
me say I am very impressed with the commitment of everyone at 
the table, and thank you for that commitment. And I want to say 
that I recognize from your testimony and from the problems that 
you've encountered in the city what a complicated issue we're 
dealing with.
    I want to ask about what I see as the two major problems 
that have come out of this testimony. One relates to caseload, 
which I see as fundamentally related, as well to what my 
colleague asked in his questions about the MSW degree; and the 
other relates to the kind of coordination it takes to even 
begin to do a satisfactory job for these children.
    Let me just say that I've been in Congress for 10 years, 
and I have seen a lot of black hole funding of the District 
government, so that even when we are faced with a very serious 
problem, I look very deeply before I believe that the answer to 
that problem is funding.
    Let me say to you right now one of you testified that an 
equal proportion of the Medicaid funding needs to go here as is 
the case in other jurisdictions.
    This would be the kind of thing this Member would be 
pleased to put into the Congress. I have to tell you that based 
on some of the questions I am going to have to ask you, I am 
not prepared to put an amendment before the Congress to that 
effect, because I have not heard testimony today that convinces 
me that the complicated issues underlying this function are 
being well managed. I don't think that anything as complicated 
as this will submit to anything but the most skillful 
management.
    Now, let me give you an example of what I mean. If, in 
fact, more money is needed, as your testimony indicated, for 
substance abuse services, day care, mental health, foster 
parent rate increases, you are talking children. That is the 
kind of thing, it seems to me, that increases ought to go for. 
But let me go to the MSW degree. Nothing has been more 
frustrating and to hear your answer, ``Well, the D.C. 
government is who required that.'' that ought to be a 
presumption against it right there. The D.C. government had to 
take this entire function from it. Here we live in a, not only 
a city but in a country where we can't get enough people to 
teach our children how to read and write, and so the Mayor 
rightfully has come forward and said in order to be able to 
recruit teachers to come to an inner city school, we have got 
to be able to raise their salaries, and I am absolutely with 
him. He hasn't said the first thing we need to do is make them 
all get masters in teaching and then somehow they will teach 
our children to read and write. If ever I have heard of a non-
job related qualification--my colleague asked about whether or 
not having a heart is a qualification. Of course not. Having an 
MSW is a qualification.
    Let me tell you why that frustrates me. If, in fact, it is 
difficult to get people to go into social work today and get 
them to graduate from social work school--remember all the 
things a young woman can be today--that is who usually becomes 
a social worker. Then, to put another hurdle up there that says 
that, by the way, we want only people with MSW degrees and 
after you get your MSW degree you come into a system that then 
uses money--and here I am quoting from the testimony of the 
GAO--that provides new hires a minimum of 80 hours. That is 
somebody with an MSW degree; 80 hours of classroom and 80 hours 
of field pre-service training.
    What in the world were they getting with their bachelor's 
and their MSW? This is like going to school for another year. 
Then provide all social workers a minimum of 40 hours in-
service training each calendar year. That all might sound very 
well, but to say that that can only happen after you have got 
your MSW degree and then to come in and say, we can't hire 
social workers, and then on top of that to say we are doing all 
of these things to keep social workers which, of course, won't 
keep social workers.
    Anybody with an MSW degree who just gets out is coming in 
here to get some kind of training, the way you do if you are 
going to be a resident at Howard University Hospital or at your 
public hospital here, and then you are going with that MSW 
degree, because you have your family to support. This is not 
rocket science.
    So when I hear, well, we are going to recommend, and they 
already have training, I don't think you should get a dime 
until that is not a requirement or until you go to the city and 
say that shouldn't be a requirement anymore; rather, maybe 
these hours should be a requirement. I don't know and nor did 
any of your testimony tell me what an MSW degree brings you 
except shortages in people to hire and complaints about their 
competence.
    So I want to ask you whether or not you will go to the city 
council right now if you need to, or otherwise break down the 
requirements right away and begin hiring some people to be 
social workers so that you will not pile a caseload which, on 
your own testimony, is twice what it should be on the social 
workers you have.
    I mean, I just see this as one commonsense approach to it 
and I don't know why the taxpayers of the District of Columbia 
should pay the receiver more to hire MSWs doing the kind of job 
to which Brianna fell victim. I want to know whether or not I 
can get your promise. If not, then I want to know why I 
shouldn't have your promise to immediately say you are going to 
recruit master's of social work people tomorrow as they get out 
and try to flag down as many of them as you can. Because 
whether they are master's or whether they are bachelor's, they 
are coming here for a reason, to get hard core experience 
hopefully, with hearts in hand, to get hard core experience so 
you are not going to keep them forever. They are young people 
and they have lots of opportunities.
    The first thing I want to ask, to clear away some of your 
caseload, is are you willing to hire competent people who have 
bachelor's degrees, who are getting out of Howard University, 
out of Catholic University, out of GW, out of Trinity this 
year, to come work in the District of Columbia and help us 
immediately make a cut in the caseload that these social 
workers are hampered with?
    Ms. Jones. Let me answer that, Congresswoman Norton. We 
have already recruited, and I made a statement earlier in my 
testimony that we have now identified staff with a selected 
date and with offers. They have accepted the workers to fill 
the vacancies that we have. Among some of the workers that we 
have recruited are bachelor level workers for some of the jobs 
that we have already moved over to----
    Ms. Norton. I am asking you, can the requirement to come 
work here, given what you know is going to be the turnover--
1989 is when I guess it all started, then 1995 you went under 
receivership. Do you really think that you are going to keep 
these folks? Given this enormous amount of in-service training, 
why do you need an MSW in the first place rather than looking 
at true job-related qualifications for the job?
    Ms. Jones. We already submitted such a request at an 
earlier point.
    Ms. Norton. Let me just pin this down. Is it a matter of 
law or is it at the discretion of the Mayor or the agency or 
the receiver?
    Ms. Graham. Ms. Norton, we issued a memorandum, we issued a 
Mayor's order about 6 months ago that changed the requirement, 
which allowed the receiver to recruit non-MSWs for certain 
positions. We are prepared to work with her more aggressively 
in eliminating any outstanding requirements associated with 
advanced degrees to do basic work.
    Ms. Norton. Say that again, I am sorry.
    Ms. Graham. We, about 6 months ago----
    Ms. Norton. The last statement. I heard that. You are 
prepared to work with her to do what?
    Ms. Graham. To move more aggressively in making any further 
changes where job restructuring is necessary.
    Ms. Norton. Ms. Graham, do they advertise for the MSW or 
not? Do they advertise that you have to have an MSW and if you 
don't, we may take some of you who have----
    Ms. Jones. We advertise for both, both MSW and BSW. We have 
hired recently both MSWs and BSWs. We have done that already. 
And we intend to indeed continue to hire because we know normal 
turnover means you are going to lose some people. So we have 
already instituted that.
    Ms. Norton. You have hired MSWs who cost the city more and 
don't get us any more. Given what you have told us yourselves 
about the quality of work you receive which is very uneven, I 
don't see what MSWs have gotten you.
    Ms. Lopes. Ms. Norton, if I may, with respect to the legal 
requirements in the case--and I think this is emblematic of 
some of the problems those requirements have posed--our 
position is that we are working aggressively and will work 
aggressively with the plaintiffs, the court monitor and the 
receiver to identify those requirements that don't make sense, 
that haven't been practical, that have been difficult to 
implement, and attempt in the first instance to reach agreement 
on moving the court for a modification.
    Ms. Norton. Ms. Meltzer, I don't need what you have to say. 
They now say that they have reached that agreement. I just want 
to make sure--this doesn't need any kind of coordination. All I 
want to know is that if you come here, you look at somebody's 
qualifications, whether or not this person has looked like they 
are willing to go into tough neighborhoods--work--give more 
than is required to the job--as opposed to let me see your MSW 
degree and you get some kind of preference for showing me a 
piece of paper.
    I don't need to hear about coordination. It doesn't take 
coordination. Ms. Graham and Ms. Jones have said that they are 
willing to hire people--I just want to make sure that you don't 
advertise that you have to have it. That will discourage a 
whole set of folks who might be willing--precisely because it 
is their first job. Let's get some folks who don't cost us an 
arm and a leg, but are willing to get in there and do the grunt 
work of helping these children because, for all that, your 
MSWs, up until now, have cost the city--and there is not a lot 
of evidence that they have brought the city any added value--
for that piece of paper.
    Ms. Graham. Ms. Norton, may I just address that for a 
moment? You are absolutely on point and that was one of the 
frustrations that Mayor Williams identified when we began to 
explore issues with this agency that caused it not to be as 
successful as it could have been. And certainly the staffing 
piece was one. We dealt with that immediately with the issuance 
of a Mayor's order. We did get pushed back from the union and 
will continue to get----
    Ms. Norton. What do they care? They represent whoever comes 
in.
    Ms. Graham. No, they do not. They feel--it is my 
understanding and those who are social workers can speak more 
eloquently to this than I no doubt--but it seems that there is 
a lessening of the profession if you begin to open up other 
jobs. The job structure of social workers over the years has 
become fairly stratified. And so as you look at restructuring, 
you will get push back from the unions; but, as I said, we are 
prepared to deal with that.
    Ms. Norton. That is all I need. If I have your commitment 
to hire people who can do the job as opposed to people who put 
in a piece of paper that will automatically cost us more money 
without knowing that they can do the job, then I am quite 
satisfied.
    The other problem that seems to me to be a frustration is 
the coordination problem. I understand why that is at least a 
real problem. Ms. Meltzer, you said we must understand that, 
after all, they have all these agencies. Well, I do not 
understand. Your job is to take the system as you find it and 
fix it. So I don't have any sympathy for the notion that, well, 
you have got to understand, there are a whole lot of agencies 
out there and it is real hard to coordinate that. The whole 
point of putting it under receivership is that the District 
didn't do it and that is what the receiver is there for and so 
I don't understand.
    This is what I do understand. The Superior Court, as I 
understand it, or its court services, handles abuse cases when 
a child remains at the home. The MPD Youth Division handles 
child abuse and another section of the MPD handles sex abuse. 
The corporation counsel litigates the issues in court, 
terminating rights, adoptions, and so forth. Child neglect 
cases are handled by the receiver and the services to abused 
children. I understand that to be very complicated.
    What I don't understand is why some of the systems 
discussed in the GAO report, some of which are so obvious you 
would think that they would occur to anybody, given this 
awesome complexity, that looking to other jurisdictions, GAO 
looked at a few other jurisdictions. You all have had this 
agency for a long time, because you are not unique at all in 
having a large number of actors. And some of the things that 
they suggested, you don't need an MSW degree to come upon. Like 
a multidisciplinary advisory committee that just sits together, 
around one table, instead of shuffling paper back among 
agencies. Or Chicago. I get this straight out of the GAO 
report. In Chicago, another big city, it must be a whole lot 
more complicated than D.C.
    You get nothing from me when you are talking complication. 
I spent 12 of the best years of my life in New York City. I 
know complication. Chicago, a city four times the size of D.C., 
what do they do? They get a group of 32 individuals--I get this 
out of the GAO report--and then they divide into subcommittees 
so that all those 32 don't have to be called together at one 
time. In other words, a kind of simple committee system to sort 
out all this complexity.
    Some of these jurisdictions have begun to figure it out. 
Why is it that we come forward and say, well, you have to 
understand it takes a lot of work to get all these agencies 
together. Why aren't we using some of these, what I would call, 
management devices, that I think you should be required to 
produce before you get more money for anything except very 
direct services to children? Like this money--80 percent of it 
must go to a mother and a child in child care or to a person 
who is in the child care center, or 90 percent of this money 
must go to the drug abuse problem and to the person working 
with the drug abuse problem, the doctor.
    Other than that kind of funding, it seems to me that the 
receiver deserves extra money only when the receiver can show 
that the receiver has implemented the kind of commonsense, 
simple management devices, like getting everybody in the same 
room and using committees to all work on one child so that you 
don't have a Brianna--kind of situation develop where they 
don't all sit down in the same room. Have a conference on the 
child before they do something like give the child back to a 
retarded mother who obviously needs to be taken care of 
herself. So I would like to know why devices like that aren't 
used in the District.
    Ms. Graham. Ms. Norton, one of the startling things for me 
when I started this work about a year and a half ago with the 
administration was the isolation that this agency experienced. 
I think one of the travesties of taking an agency out of the 
governance structure is it gives other entities within the 
governance structure permission to do whatever they want to do. 
One of the first things is to ignore the needs of the agency. 
We found backlogs of applications for foster care homes, 
backlogs for fire inspections, backlogs, backlogs. The receiver 
was not even permitted to engage in meetings or generally was 
not expected to come to meetings with other government 
agencies.
    All of that has changed now. She works actively with the 
other clusters that are under the human service rubric that I 
am responsible for. We have eliminated all of the backlogs and 
systematically have gone through looking at ways that we can 
reintegrate this agency and the needs of these individuals it 
serves with the other agencies. One of the requests in the 
budget or one of the requirements of the remedial order is 
substance abuse treatment services for the families. I think it 
is absurd that that has to come out of the agency's budget. 
That receivership ought to be able to refer individuals over to 
the Department of Health's alcohol and substance abuse 
treatment services. Without question. They should be a 
priority. Not so. As I said, and you will find this as you look 
at each of these receiverships.
    You have not done the governance structure or the residents 
of the city a favor in extracting these agencies out of the 
governance structure. It simply gives the permission to treat 
them as separate entities.
    Ms. Norton. I agree with you, but the agency had to be 
extracted. The District of Columbia was criminal, that is the 
only word for it, in the way they treated these children.
    Ms. Graham. We agree.
    Ms. Norton. But what the government before you could have 
done would have been what you have done. To say, well, they may 
be out of the structure, but there is nothing that keeps us 
from sitting around the table with them.
    Ms. Meltzer. Congresswoman Norton, I want to just comment. 
My discussion of the complexity was in no way meant to suggest 
that the fact that it is complex means that it should not or 
could not be resolved. I hope you understand that.
    Ms. Norton. But you didn't suggest what can be done about 
it. My problem is, I wouldn't accuse you of bad faith there, 
but when I read in the GAO report the kinds of things that a 
college student might think of to do--why don't we all get a 
committee and try to deal with this one child--I lose patience.
    Ms. Meltzer. The problem in the District is that there are 
multiple committees with overlapping responsibilities.
    Ms. Norton. Where was that committee on Brianna? What 
committee had charge of Brianna? Name me the committee that had 
charge of Brianna. There was a lot of paper that went back and 
forth on Brianna. In fact, I want to ask about Brianna. It is 
not so much Brianna. I want to focus on the mother. I didn't 
know until this confidential report came out that the mother 
was a borderline retarded woman. I knew she had eight children 
and is now pregnant with another child. This may be somebody 
who believes, and I don't know, I have no other information 
about it, that the only way she can live is to have babies.
    So you are talking committees. All I have heard from Ms. 
Graham is that they know they must do this, but I haven't heard 
anyone say that there are any such groups that work on the 
individual child.
    Ms. Graham. Ms. Norton, we are in the process of 
reconstructing government here in the District of Columbia.
    Ms. Norton. Tell me about it.
    Ms. Graham. I make no excuses for the dysfunctionality that 
we found. We are actively engaging. Yes, we do have work 
groups. I think that the learning that the Child and Family 
Service Agency--and Ms. Jones can speak to that--had from 
Brianna and the other children who are dying, Brianna is just 
symbolic of life in the District for so many children, far too 
many. They have put in place systems that allow for better 
coordination. But more importantly, the work that I am doing in 
trying to bring agencies together to begin to look at how we 
function cross-functionally is the work of this structure that 
the Mayor has put in place, and I have been charged to achieve 
some pretty monumental goals around better agency coordination 
over the next year. This is not an easy task, especially where 
you have got agencies who have grown accustomed to working in 
silos.
    Ms. Norton. Ms. Fagnoni, did you find any evidence that 
these kinds of simple, almost simple-minded mechanisms that 
other States and cities have put in place are beginning to 
blossom in the District?
    Ms. Fagnoni. Our hope is that by citing these examples, 
these will help some of the people in this room and others 
think about where they might move forward. Our purpose in 
talking about the whole section is how do we move forward from 
here? There has been some amount of progress, there is a lot 
more to be done, but all of these sorts of approaches that 
other jurisdictions have used were all borne out of crises, 
whether there was a child's death or some other kind of crisis. 
There are any number of jurisdictions, as you yourself said in 
your opening statement, that have the same sorts of problems. 
What we have seen is other jurisdictions moving ahead over some 
period of years to really try to figure out some new approaches 
that are less traditional that draw from the full range of 
stakeholders who are involved in decisions about the child and 
their family, and this is something that we hope people in the 
District who are overseeing this system can think about and 
learn more about and look at what might work best for the 
District as they move forward.
    Ms. Norton. Obviously the death of this child makes us very 
impatient to get that under way. I can only ask, Ms. Graham and 
Ms. Jones, if you might be in communication with those 
jurisdictions. I don't know which one fits here. It seems to me 
we do not need to reinvent the wheel here. I understand that 
both of you have found this system in a mess, and I am 
certainly not trying to assess blame, but I really do think 
that this has gone on so long. And I know about the New York 
system. I know about how pervasive this is across the United 
States.
    I just think we can't use that as a reason for saying we 
have got to take more time. I don't think we have more time 
with these children. I would like to know, what is happening 
with Brianna Blackmond's mother now, this mother who may be as 
incapable of taking care of herself as she is of taking care of 
more children? Has there been any attempt--her children were 
already taken from her--what is happening to this mother so 
that this cycle gets broken, she gets some help, and we, 
perhaps, at least do away with that problem?
    Ms. Jones. We have a social worker that is working with her 
and also with the children. One of the things that we have had 
to do with that family is the children have been particularly 
traumatized by the continuing reference to them in the media. 
The older children read the paper and see the television. We 
have put in a lot of additional special therapy and treatment 
for the children, all the ones that require it. But we do have 
a social worker that is working with the mom to try and help 
stabilize her and to figure out what we are going to do.
    Ms. Norton. She was certainly left out there on her own. I 
almost feel as sorry for her as I do for her children. She was 
left out there by the District of Columbia. When we focus in on 
the children, I ask also that we focus in on really 
incapacitated parents like this.
    Finally, I have found your testimony very frustrating. It 
has great urgency. You are people who come in as kind of the 
final act. I recognize that it is frustrating for you as well. 
I don't see the kind of innovation, though, I don't see the 
kind of, as Mr. DeLay said, ``thinking outside the box.'' I 
don't think you can break through this unless you get totally 
outside of the box. The ``inside the box'' is very confused and 
very messed up.
    I was discouraged to hear about the declining capacity for 
foster homes, the decline in 6 months' time in the number of 
beds, when the number of children continues to go up, and that 
you find this declining capacity across all your agencies. The 
testimony cited several reasons for this: that there were 
parents retiring from the system, that there was improved 
recordkeeping so that if there was a parent who had three 
children, that wasn't counted; that was counted as one child, 
and adoption.
    Suppose we take adoption out of the picture. How much of 
the problem of capacity would be left? Most of it? Half of it? 
Let's take adoption, which is the best way to get a reduction 
in placements. I wouldn't have put it in there in the first 
place. How much of the declining capacity in beds comes from 
other causes?
    Ms. Jones. There are a couple of things that I think are 
creating problems for us in terms of capacity. Within the 
District government, itself, the District boundaries, one of 
the problems is what we see, and I can't substantiate this 
factually, but I know from our work is that there are fewer 
individuals who are indeed electing to do this because they are 
in the work force. The general population of available people 
who normally want to do this kind of work are not going to come 
from young, single individuals.
    Ms. Norton. This, I take it is a nationwide problem, this 
decline?
    Ms. Jones. Yes, it is not just unique to the District. The 
other thing that is happening, Congresswoman Norton, is more of 
our children are being placed with relatives. What we have not 
had in the past is a way to provide some type of support system 
for relatives who step up and are willing to take on the 
responsibility of----
    Ms. Norton. How is that related to declining capacity, more 
of the people who are taken to relatives?
    Ms. Jones. In terms of capacity it is at least our 
perception that many of the people who would have been the kind 
of individuals who would be taking in children in foster care 
now are taking care of their own. But they too need a support 
system. We are up against that issue.
    And also in the District, there has been historically the 
issue of getting the homes through the kind of inspections that 
are required. And lead paint has been one of the issues here. 
It is true nationally that that is a problem in urban areas. 
Not as much in the more rural areas but in urban areas, a lot 
of your housing stock is old and the housing stock has paint 
that if you go below level three, you get down to level three 
in the paint, you are going to hit lead. It is a very expensive 
process to remove lead. We in some circumstance can use that 
home, but not for young children. You can only use that home 
for an older child. We use that also as an opportunity to try 
and help families get the lead out of their homes. Even for 
their own children, they shouldn't have it. Those are some of 
the factors.
    Ms. Norton. This is such a national problem--could I just 
finally ask, this will be my last question, if ever there was a 
problem that needed ``thinking outside the box,'' since this is 
the pervasive problem of foster care in the United States, it 
is the fact that there are not people at home to take care of 
children.
    I wonder if either Ms. Fagnoni, from the GAO, or any of you 
as professionals have any out-of-the-box thinking, including 
whether or not dealing with groups of children--and I know 
there is some of that--would be preferable to what we are going 
through now? Perhaps the only way to start thinking, or one of 
the only ways--I am sure what I am asking you is are there 
other ways to begin to think through? It scares me to death to 
see that if in 6 months time you went from 1,929 beds to 1,568 
beds, we are going to be going, going, gone pretty soon. 
Somebody had better start thinking fast about what you do about 
this rate of decline.
    Ms. Jones. This is one option we certainly are looking at 
and beginning to do something about. I think you have to 
consider going to professionally paid caretakers as one way to 
begin to build a core of individuals who would be available to 
take children, and especially when you look at the kind of 
needs that the children come to us with.
    Ms. Norton. Professionally paid caretakers would be whom?
    Ms. Jones. Individuals for whom this becomes a vocation as 
opposed to being done on a volunteer basis. There are a couple 
of things that I think make that an option that needs to be 
looked at. These children have many serious problems. Using 
paid providers would allow you to be able to use them as a way 
to provide treatment. You would not have to then resort to 
having someone else to have to take the children to do followup 
treatment.
    Ms. Norton. Is there a pool of people--I also want any 
answers from the rest of you, but is there a pool of people 
who, if they were paid enough, would be satisfactory surrogates 
for children? Given what has happened to these children, I 
think we have to look at everything that is put on the table.
    Ms. Graham. I would say that there aren't, Ms. Norton. We 
have looked at several communities in the country. We have 
looked especially at the SOS village model. They are 
undertaking right now a feasibility study right here in the 
District. What happens is the community is actually created for 
these children. Families are actually created for these 
children. It is social construction, if you will.
    In the two experiments that we have looked at, one in 
Illinois and one in Florida, they both are working very well. 
And actually we have asked, actually in the fiscal year 2001 
tobacco money, for funds to be set aside for the creation of 
such a community here in Washington exactly.
    Ms. Meltzer. Part of the answer is that none of these 
solutions by itself is going to work. All across the country as 
States deal with these problems, they are trying a little of 
this and a little of that to deal with the problems. The other 
more general point is that people are understanding that no 
matter what you do, we have got to keep families safe before 
they come to the attention of the child welfare agency; that 
the investment has to be in community partnerships, making sure 
that there are community-based organizations, faith 
communities, neighbors, all out there supporting families so 
that you don't get to the situation where we need to be 
removing as many children from their families permanently.
    Ms. Norton. I couldn't agree more. I do think a little of 
this and a little of that is more of what we need to do. We 
need to experiment with what works. I couldn't agree more that 
no one thing will work. But these declining numbers should 
scare all of you very much.
    Ms. Fagnoni. You are correct that adoption has to be a 
piece of that. There has to be a whole package of efforts to 
make sure that only those kids that really truly have to be out 
of home for some period of time are in those placements. But 
then are also needs to aggressive moves to put those kids in 
more permanent settings, whether it is returned to their home 
or to an adoptive family.
    Ms. Norton. There was strong bipartisan support over here. 
First there was strong support for family reunification. But 
in, I guess it was 1997, we passed a law that said, OK. 
Meanwhile, for families there has been a great presumption in 
favor of whoever can speak, who can speak as some adult saying, 
don't take my child.
    I must tell you I have come slowly to the conclusion that a 
child has but one life to give, and most of the people on my 
side of the aisle strongly supported, the notion that says you 
can keep this child in foster care for a limited period of time 
and then if there is somebody that wants this child, let them 
have that child.
    That is where I have finally come down. Please do all you 
can to keep a family from being in trouble. But the way in 
which the presumption has been in favor of somebody who is a 
dope addict, in favor of somebody who is hanging out with 
criminals or having some thug sleep in alleys every night, the 
presumption in favor of those people over the child, I have had 
it. We have just lost too many of our children.
    Let me ask if you think that the new adoption requirements 
of the Federal law are being implemented in accordance with the 
mandate? We have the number of months, 12 months and then 15.
    Ms. Jones. Yes. We have implemented the adoption and Safe 
Families Act in the District. This is the one area even prior 
to implementation, I think, where we have demonstrated that in 
spite of the system that we have made progress has been in 
adoptions. That is the one area where we have seen steady 
progress. It has to get better, but clearly even with all the 
problems we have talked about, our adoption stats are going up. 
We are getting children adopted.
    But once again, I think another area that will help us help 
a lot of children exit the system is to have a way to provide 
some type of financial support to relatives who are willing to 
take guardianship of their children. That is not federally 
funded now. What we have to do at this point is to fund it with 
local money. I have requested it. It will allow us to move a 
lot of children out of the system, with guardianship, with 
protections, but those families need some type of support.
    Ms. Norton. Mr. Chairman, I am going to ask you if you will 
consider with me--and perhaps you and I can speak to Mr. 
DeLay--I don't know if this is feasible, but Ms. Jones has just 
testified these declining numbers are--we are just not going to 
have anyone in a few years in the work force and all, and that 
is not just D.C.--on a pilot basis if we could fund on some 
limited basis--relatives who would otherwise--you know what the 
problem is and I have this problem, too, you see. I have a 
problem that if it is your child, you ought to be willing to--
that is where I have got a 30-year-old child with Down's 
Syndrome.
    So I come to this: Who is supposed to take care of her as 
long as I can? But I am trying not to put people in the 
position that I am and to think of whether or not if there were 
certain kinds of need that could be established on the part of 
a close relative--and one would have to draw the legislation 
very carefully--and on a pilot basis, whether or not we might 
relieve what looks like a nationwide crisis developing with 
just nobody to take these children. They have suggested that 
what the cities are looking for now are actually paying people. 
That is like paying a social worker, full-time person, to be a 
parent. You might pay somebody a whole lot less if it were an 
aunt who makes $20,000 a year, couldn't be expected to take in 
another person. I wonder if there is something we might talk 
about with Mr. DeLay who has a deep interest in this.
    Mr. Davis. We have got a lot of issues to talk about that 
have been raised here today, Ms. Norton, but we will certainly 
take that into consideration. Any other questions?
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Davis. Let me ask a question. Let me start with Ms. 
Fagnoni. You have been sitting over there quietly and did the 
GAO audit. Could a Brianna Blackmond tragedy occur again today 
under the current system? Is there any reason it couldn't still 
occur?
    Ms. Fagnoni. Unfortunately, it is probably a situation that 
could still occur just about anywhere in this country. What one 
hopes for, though, is that there is a system in place where it 
is much less likely to happen. I think that is what they need 
to strive for.
    Mr. Davis. Have you seen any measurable strides since that 
in terms of change?
    Ms. Fagnoni. As we reported, there has been some progress 
that has been made toward some of the issues under the court 
order. But to really make the significant strides that will 
really keep kids from falling through the cracks, I believe the 
kind of collaboration and coordination we talk about is really 
something that needs to be pursued as it has been in some other 
jurisdictions facing some of the same problems.
    Mr. Davis. Do you know what the national average length of 
service for service workers is? Does anybody know?
    Ms. Jones. I know what it used to be. An average of around 
2 years. In terms of how long the average social worker would 
stay?
    Mr. Davis. In D.C. or nationally?
    Ms. Jones. In D.C. right now, I don't want to give you bad 
numbers, but looking at our work force in the last year, I 
would say the average worker is staying a little less than 2 
years. About a year and a half overall.
    Mr. Davis. Let me start with Ms. Shellman, I am interested 
in your perspective on this, and then I will let you, Ms. 
Jones, respond and anyone else who wants to. Is the kinship 
care program utilized nationally as a best practice option for 
placing abused and neglected children?
    Ms. Shellman. I am not sure I am the best person to answer 
that question because I don't have the expertise in the foster 
care area. It is certainly something that as a child advocate 
that we would advocate for.
    Ms. Jones. It is a phenomenon that is happening all over 
the country. But I think in all reality, it has happened by 
default. It has happened because more and more children, we 
have found families who find themselves with a relative who in 
fact has gotten involved in some type of activities, usually 
substance abuse, cocaine. It is a phenomenon that pretty much 
you can almost synchronize with the introduction of crack 
cocaine, where suddenly you had large numbers of young parents 
getting caught up in the drug scene. They are a parent, 
however, not having been involved in it. Therefore, being faced 
with a situation with a grandchild or a niece or a nephew 
suddenly left out there, not being able to be cared for. So I 
think it has really been a result of there just not being other 
type of caretakers available and the sudden surge in children 
who were left without a parent.
    Mr. Davis. Let me then, Ms. Shellman, see if you can help 
with this. Do you think the collaboratives operate effectively? 
Are they on an equal footing in terms of training and resources 
they bring to the community?
    Ms. Shellman. I have the gossip on the street, I have the 
limited experience that we have had with the collaboratives and 
we expressed concern over them. We expressed concern over the 
level--as one of the things I said, we are dealing with 
children with a lot of mental health problems who need a lot of 
specialized care, and we are concerned about the level of 
training and the level of expertise in dealing with the 
children in the collaboratives. We have also had some concerns 
where we have had reports that have been delayed because they 
haven't come through the collaboratives; they have tried to 
handle them themselves when they are in fact cases that need to 
be reported.
    Finally I would say that we have also encountered a few 
cases where there has been cases that have come through where 
there has been questions, where we have had sexual abuse cases 
where they have occurred through relationships made through 
collaboratives, as in baby-sitting care and things like that.
    Mr. Davis. It is not data, it is more this is kind of your 
instinct and your experience?
    Ms. Shellman. It is my instinct and it is what is on the 
street with talking to the people who are working in this 
effort that there is just concern, not that they could not work 
but that they are not receiving the appropriate support and 
monitoring. I don't say that against Ms. Jones, but I just say 
that is what we are hearing.
    Mr. Davis. That is why we are just trying to collect 
information. Ms. Jones.
    Ms. Jones. I think in fairness to the whole collaborative 
movement, it is new. It is a new thing that is evolving. We 
have been working with them to begin to develop some of those 
kinds of standards. In fact we are in the process of doing an 
evaluation and assessment both qualitatively and quantitatively 
of what they have been doing. But I think in general the 
collaboratives were never envisioned to be a vehicle for taking 
on the more severe type of case situations; but that is not to 
say that in a community, this is the known place where you can 
go and get help that people will start there. What we have done 
by connecting them to us through a contractual relationship, is 
that it provides a way for them to move those cases over to us.
    Now, that requires training, that requires supervision and 
monitoring. And we are and do have a structure to monitor them. 
We are assessing now do we need to increase that? Or do we need 
to expand that? Really we are looking at the whole structure to 
see if there are other changes that need to be made. We want to 
ensure that children are safe.
    Ms. Shellman. May I make one more comment?
    Mr. Davis. Sure, please.
    Ms. Shellman. I think another concern, too, is the capacity 
of the community. So certain collaboratives, depending on the 
capacity of the community, are going to have a different effect 
than other collaboratives in different communities. When we are 
recommending this child victim center with the National 
Children's Alliance, what we are saying is that we are going to 
centralize all of the expertise and all of the services and all 
of the resources so then maybe when you are having these 
community collaboratives, they have that resource to also refer 
to; because right now everything is so fragmented and 
disjointed, it is hard for people in the community who want to 
help to know how to help or how to correctly help.
    Mr. Davis. Let me ask either Ms. Meltzer or Ms. Fagnoni, 
how much time passes from the time a case is reported to the 
hotline and a detective is assigned through, to when the first 
joint forensic interview is completed? Any idea?
    Ms. Meltzer. We have very poor information about that 
transfer. We looked at a small sample of cases that were 
reported to the police department for investigation of abuse, 
and based on that small sample the children were seen within 48 
hours in only 45 percent of the cases that were investigated by 
the police. However, out of our even small sample, there were 
some number of records that the police department was unable to 
provide us. I suspect that those are the records that are going 
into the boxes that Kim Shellman talked about. So we don't have 
a lot of confidence that there is quick uptake.
    Mr. Davis. Thank you.
    Ms. Fagnoni. We also heard concerns that the calls aren't 
always being answered and that questions about how effectively 
those who are answering the calls are able to make the right 
decisions on what to do about the calls.
    Mr. Davis. Ms. Graham, do you concur with that basically?
    Ms. Graham. I would concur with that. I too received a 
phone call from Chief Gainer just before we came this 
afternoon, because we have made it very clear that this is 
serious business and it will not be tolerated. The the 
continued neglect, I guess, of issues of crimes against 
children, we cannot continue to tolerate; and will not. And as 
we move aggressively to support the development of this CAC 
model here in the District, we have got to have a system in 
place that ensures that children will be protected and the 
chief assured me that they were going to work with us in making 
this happen here.
    Mr. Davis. Ms. Lopes, let me ask you a couple of questions. 
We talked briefly about the plaintiffs in the LaShawn A. case. 
Have they been cooperative in working toward coming to an 
agreement to end the receivership?
    Ms. Lopes. They have indicated a willingness to discuss a 
cooperative agreement, yes. We have been dealing with some 
emergency issues in the case. Following the resolution of those 
issues, we will turn to substantive negotiations with respect 
to a transition plan.
    Mr. Davis. Certainly that is the fastest way to get this 
resolved?
    Ms. Lopes. Absolutely.
    Mr. Davis. We are dealing with a system that despite 
anybody here can be doing their job 100 percent, we are dealing 
right now with a system that is just--we have people stumbling, 
it is just not going to work. That is the bottom line. Despite 
the best intentions of everybody--we could throw as much money 
as we wanted into it--we are dealing with a system that is just 
unworkable. I am sure the plaintiffs realize this. I know they 
have a lot of other things to go, but in the meantime we are 
exposing every kid in this city to something that could fall 
through the cracks. That is the concern.
    I know the plaintiffs have a lot to say about this because 
of where the court suit is and how this came into being. That 
is why I asked the question.
    Ms. Lopes. There is an extremely collaborative spirit 
amongst the parties and with the court. The judge has actually 
taken tremendous leadership in terms of bringing all of us 
together informally to have discussions to resolve a series of 
disputes that have occurred in the case. My expectation based 
on preliminary discussions is that we will be able to negotiate 
successfully and collaboratively a very constructive transition 
out.
    Mr. Davis. I just don't think that we are going to do a lot 
in terms of funding and stuff with this structure, for good 
reason. We have got to get a structure. The court suit is the 
best way out of it, the fastest way and the cleanest way out of 
it. There are other ways we may be able to deal with 
legislatively, but they all may entail litigation down the road 
and everything else. That is why I am asking. What is the state 
of the Child and Family Service Agency budget?
    Ms. Lopes. The budget request----
    Mr. Davis. Whoever wants to take it.
    Ms. Lopes. The budget request, as I recall, was $184 
million. Last year's baseline in terms of spending was $150 
million as I recall, and Ms. Jones can correct me if I am off a 
bit. The Mayor recommended for fiscal year 2001, up to $184 
million in local funds and projected Federal revenue. The 
proposed budget is going through the consensus process now with 
the Mayor, the council and the Financial Authority.
    Mr. Davis. Let me ask a question. Couldn't we all agree 
that there is a more efficient way of doing this? If we had a 
better structure this money could be better spent and we could 
just handle these issues in a safer way and a better way for 
the kids and in a more cost-effective way?
    Ms. Graham. We could agree to that.
    Mr. Davis. I am not saying what it is. I am not going to 
try to get that. That is where we would probably break down.
    Ms. Graham. We could agree to that. But one of the things 
we have to acknowledge here is that there has been a 
disinvestment in the service for the past 5 years since it was 
in receivership. So not only did you not have full funding of 
the modified final order, you didn't have basic services for 
this agency funded at an appropriate level. And then add to 
that the piece that Ms. Norton raised, the excessive design of 
the staffing patterns in the agency which further complicated 
matters.
    And so one issue on top of another created a very complex, 
almost unworkable system. And then you have got all of these 
other services spread in all of these other agencies and you 
have got dollars following those services. You are absolutely 
right. Reconstructing the service, redesigning it in such a way 
as to maximize its efficiency would result probably in less 
failure.
    Mr. Davis. What we would call ``business process redesign'' 
back in my days as a county executive. You would sit down, I am 
sure that money could be spent much more efficiently, we could 
have better safeguards. And with this court order hanging out 
there, it just makes it very difficult for anybody to act. We 
all do our best but we are dealing in a framework.
    Ms. Lopes. One of the points I wanted to make earlier is 
that as we transition out of this receivership, we are also 
going to review quite aggressively the requirements in the 
order. Because once the receivership terminates, the order 
continues until we come into compliance and can demonstrate 
sustained compliance. So that part of our approach in this 
administration is to really review the order, review it 
constructively and collaboratively at the onset but attempt to 
pare it down, streamline it, make it something workable, make 
it something that is practical and can be readily implemented.
    Ms. Norton. Will the gentleman yield?
    Mr. Davis. I would be happy to.
    Ms. Norton. The chairman and I were discussing earlier the 
confusion that arose from discussions we had heard over the 
years from the District government that it had to fund whatever 
the court said fund, and that the District often came and said 
that there were difficulties with requiring it simply to give a 
blank check. Now you are saying that the services weren't fully 
funded. Would you clarify that? Hasn't the court ordered what 
the funding should be? How is that done?
    Ms. Meltzer. The agency has--never have any of their budget 
requests fully funded. Part of that was because for a long 
time, we did not have enough confidence that the agency knew 
how to spend the money. That was your question about the wisdom 
of throwing good money after bad. The court was very reluctant 
to just go in and order more money even though the budget 
requests weren't being met. It is only at this point, I think, 
that all of the parties are comfortable that the agency is 
sufficiently well managed that they could really spend the 
money.
    Ms. Jones. One of the things I wanted to point out, too, 
and I think this goes back to an issue you raised, 
Congresswoman Norton, is the the money we are asking for this 
year is almost all directed at services, not at operational 
things. And much of it is in my budget because I am charged by 
the order that if the District government does not make those 
services available through its other services, I am charged to 
make it happen. That is why my request is higher than what it 
would have to be. If substance abuse services were available 
through that agency, prioritized for the children we have, I 
wouldn't need to request it in my budget. That is why I am 
requesting the additional $34 million, because I have to meet 
the requirement for services that aren't being met in other 
District government agencies.
    Mr. Davis. Let me ask--I will try to get everybody, you 
have been here a long time, I want to get you going--just a 
couple of other pretty quick questions. Ms. Jones, I will ask 
you. In the kinship care program, I am not clear if the 
relatives of the children go through a background check, any 
kind of program to train them to be foster parents, and are 
they monitored regularly by social workers?
    Ms. Jones. Yes. The requirements are----
    Mr. Davis. At least in theory that is the way it is.
    Ms. Jones. No, in actual practice. They are reviewed, 
licensed, they have to have background clearance, the registry 
clearance, of both Federal, FBI and local police clearances. 
The requirements are the same.
    Mr. Davis. Are you now identifying ways to ensure that 
children are going to experience consistency of service from 
the time they enter the system until they leave?
    Ms. Jones. We are making every effort to. Part of our 
ability to do that is being able to have the staff that allows 
us to do that. We are focused right now, our main focus is on 
trying to get our intake services working properly and avoid 
any shortage there. In the other program areas, we are working 
on those, too, but a lot of our ability to bring all of the 
qualitative aspects is tied directly to our being able to cover 
our workload and, of course, training and supervision.
    Mr. Davis. Anything else anybody wants to add before we 
conclude the hearing?
    Ms. Shellman. Ms. Norton, would you like an answer to that 
why only 10 percent of our cases for CAC have appointments?
    Ms. Norton. I was going to ask that that question be 
directed to you and to the courts and put in the record. But 
yes, I would appreciate an answer.
    Ms. Shellman. I can only speculate on that. But I do know 
that I am very concerned about the fact that our CAC in the 
District of Columbia only participates postdisposition. So, 
therefore, what they were talking about earlier about in other 
jurisdictions where CACs are appointed during the investigative 
phase to assist children and families, ours do not come in 
until disposition and postdisposition. The judge, the presiding 
judge will issue an order if it is requested but I believe that 
is the answer.
    Ms. Norton. You think it should be changed, then.
    Ms. Shellman. Yes.
    Ms. Norton. Mr. Chairman, there is one more question I 
would like to ask. That is, one of the most scandalous things 
we heard in testimony today is that the judges rotate in and 
out and leave these children where they find them or have to 
take them with them and cause great confusion in the process. 
Should the District of Columbia have a separate family court?
    Ms. Shellman. Yes.
    Ms. Graham. Absolutely.
    Mr. Davis. Could we get that unanimous yes on the record?
    Let me thank each and every one of you. It has been a long 
session. We have tried to get a lot of facts collected. I am 
not sure of what we will do with everything. If you want to 
supplement anything, the record will remain open for 14 days. 
If you want to supplement anything you have said or something 
else occurs to you, we will put it in the public record. Again, 
thank you for your time. We appreciate it. We are all working 
toward the same goal. These proceedings are adjourned.
    [Whereupon, at 4:55 p.m., the subcommittee proceeded to 
other business.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T0581.088

[GRAPHIC] [TIFF OMITTED] T0581.089

[GRAPHIC] [TIFF OMITTED] T0581.090

[GRAPHIC] [TIFF OMITTED] T0581.091

[GRAPHIC] [TIFF OMITTED] T0581.092

[GRAPHIC] [TIFF OMITTED] T0581.093

[GRAPHIC] [TIFF OMITTED] T0581.094

[GRAPHIC] [TIFF OMITTED] T0581.095

[GRAPHIC] [TIFF OMITTED] T0581.096

[GRAPHIC] [TIFF OMITTED] T0581.097

[GRAPHIC] [TIFF OMITTED] T0581.098

[GRAPHIC] [TIFF OMITTED] T0581.099

[GRAPHIC] [TIFF OMITTED] T0581.100

[GRAPHIC] [TIFF OMITTED] T0581.101

[GRAPHIC] [TIFF OMITTED] T0581.102

[GRAPHIC] [TIFF OMITTED] T0581.103

[GRAPHIC] [TIFF OMITTED] T0581.104

[GRAPHIC] [TIFF OMITTED] T0581.105

[GRAPHIC] [TIFF OMITTED] T0581.106

[GRAPHIC] [TIFF OMITTED] T0581.107

[GRAPHIC] [TIFF OMITTED] T0581.108

[GRAPHIC] [TIFF OMITTED] T0581.109

[GRAPHIC] [TIFF OMITTED] T0581.110

[GRAPHIC] [TIFF OMITTED] T0581.111

[GRAPHIC] [TIFF OMITTED] T0581.112

[GRAPHIC] [TIFF OMITTED] T0581.113

[GRAPHIC] [TIFF OMITTED] T0581.114

[GRAPHIC] [TIFF OMITTED] T0581.115

[GRAPHIC] [TIFF OMITTED] T0581.116

[GRAPHIC] [TIFF OMITTED] T0581.117

[GRAPHIC] [TIFF OMITTED] T0581.118

[GRAPHIC] [TIFF OMITTED] T0581.119

[GRAPHIC] [TIFF OMITTED] T0581.120

[GRAPHIC] [TIFF OMITTED] T0581.121

[GRAPHIC] [TIFF OMITTED] T0581.122

[GRAPHIC] [TIFF OMITTED] T0581.123

[GRAPHIC] [TIFF OMITTED] T0581.124

[GRAPHIC] [TIFF OMITTED] T0581.125

[GRAPHIC] [TIFF OMITTED] T0581.126

[GRAPHIC] [TIFF OMITTED] T0581.127

[GRAPHIC] [TIFF OMITTED] T0581.128

[GRAPHIC] [TIFF OMITTED] T0581.129

[GRAPHIC] [TIFF OMITTED] T0581.130

[GRAPHIC] [TIFF OMITTED] T0581.131

[GRAPHIC] [TIFF OMITTED] T0581.132

[GRAPHIC] [TIFF OMITTED] T0581.133

[GRAPHIC] [TIFF OMITTED] T0581.134

[GRAPHIC] [TIFF OMITTED] T0581.135

[GRAPHIC] [TIFF OMITTED] T0581.136

[GRAPHIC] [TIFF OMITTED] T0581.137

[GRAPHIC] [TIFF OMITTED] T0581.138

[GRAPHIC] [TIFF OMITTED] T0581.139

[GRAPHIC] [TIFF OMITTED] T0581.140

[GRAPHIC] [TIFF OMITTED] T0581.141

[GRAPHIC] [TIFF OMITTED] T0581.142

[GRAPHIC] [TIFF OMITTED] T0581.143

[GRAPHIC] [TIFF OMITTED] T0581.144

[GRAPHIC] [TIFF OMITTED] T0581.145

[GRAPHIC] [TIFF OMITTED] T0581.146

[GRAPHIC] [TIFF OMITTED] T0581.147

[GRAPHIC] [TIFF OMITTED] T0581.148

[GRAPHIC] [TIFF OMITTED] T0581.149

[GRAPHIC] [TIFF OMITTED] T0581.150

[GRAPHIC] [TIFF OMITTED] T0581.151

[GRAPHIC] [TIFF OMITTED] T0581.152

[GRAPHIC] [TIFF OMITTED] T0581.153

[GRAPHIC] [TIFF OMITTED] T0581.154

[GRAPHIC] [TIFF OMITTED] T0581.155

[GRAPHIC] [TIFF OMITTED] T0581.156

[GRAPHIC] [TIFF OMITTED] T0581.157

[GRAPHIC] [TIFF OMITTED] T0581.158

[GRAPHIC] [TIFF OMITTED] T0581.159

[GRAPHIC] [TIFF OMITTED] T0581.160

[GRAPHIC] [TIFF OMITTED] T0581.161

[GRAPHIC] [TIFF OMITTED] T0581.162

[GRAPHIC] [TIFF OMITTED] T0581.163

[GRAPHIC] [TIFF OMITTED] T0581.164

[GRAPHIC] [TIFF OMITTED] T0581.165

[GRAPHIC] [TIFF OMITTED] T0581.166

[GRAPHIC] [TIFF OMITTED] T0581.167

[GRAPHIC] [TIFF OMITTED] T0581.168

[GRAPHIC] [TIFF OMITTED] T0581.169

[GRAPHIC] [TIFF OMITTED] T0581.170

[GRAPHIC] [TIFF OMITTED] T0581.171

[GRAPHIC] [TIFF OMITTED] T0581.172

[GRAPHIC] [TIFF OMITTED] T0581.173

[GRAPHIC] [TIFF OMITTED] T0581.174

[GRAPHIC] [TIFF OMITTED] T0581.175

[GRAPHIC] [TIFF OMITTED] T0581.176


</pre></body></html>
